<html>
<title> - HEARING ON THE MARINE MAMMAL PROTECTION ACT (SECTIONS 118 AND 119)</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





 
   HEARING ON THE MARINE MAMMAL PROTECTION ACT (SECTIONS 118 AND 119)

=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                     APRIL 6, 2000, WASHINGTON, DC.

                               __________

                           Serial No. 106-79

                               __________

           Printed for the use of the Committee on Resources


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
66-525 CC                    WASHINGTON : 2000





                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH-HAGE, Idaho          CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA MC CHRISTENSEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  JAY INSLEE, Washington
MARK E. SOUDER, Indiana              GRACE F. NAPOLITANO, California
GREG WALDEN, Oregon                  TOM UDALL, New Mexico
DON SHERWOOD, Pennsylvania           MARK UDALL, Colorado
ROBIN HAYES, North Carolina          JOSEPH CROWLEY, New York
MIKE SIMPSON, Idaho                  RUSH D. HOLT, New Jersey
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                    JIM SAXTON, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       ENI F.H. FALEOMAVAEGA, American 
JAMES V. HANSEN, Utah                    Samoa
WAYNE T. GILCHREST, Maryland         BRUCE F. VENTO, Minnesota
RICHARD W. POMBO, California         PETER A. DeFAZIO, Oregon
WALTER B. JONES, Jr., North          NEIL ABERCROMBIE, Hawaii
    Carolina                         SOLOMON P. ORTIZ, Texas
MARK E. SOUDER, Indiana              FRANK PALLONE, Jr., New Jersey
ROBIN HAYES, North Carolina          CARLOS A. ROMERO-BARCELO, Puerto 
MIKE SIMPSON, Idaho                      Rico
                                     ADAM SMITH, Washington
                    Harry Burroughs, Staff Director
                     Dave Whaley, Legislative Staff
               Jean Flemma, Democratic Legislative Staff







                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held Thursday, April 6, 2000, Section 118................     1

Statement of Members:
    Faleomavaega, Hon. Eni F. H., a Delegate in Congress from the 
      Territory of the American Samoa, prepared statement of.....   146
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Calambokidis, John, Cascadia Research Collective.............   121
        Prepared statement of....................................   123
    Foster, Bill, Mid-Atlantic Coastal Gillnet Industry..........    90
        Prepared statement of....................................    92
    Reynolds, PH.D., John E., Chairman, Marine Mammal Commission.    27
        Prepared statement of....................................    29
    Rosenberg, PH.D., Andrew, Deputy Assistant Administrator for 
      Fisheries, National Marine Fisheries Service...............     8
        Prepared statement of....................................    11
    White, Pat, Maine Lobstermen's Association...................    45
        Prepared statement of....................................    47
    Young, Nina, Center for Marine Conservation..................    50
        Prepared statement of....................................    52
    Young, Sharon, Humane Society of the United States...........    93
        Prepared statement of....................................    95

Hearing held Thursday, April 6, 2000, Section 119................   149

Statement of Members:
    Faleomavaega, Hon. Eni F. H., a Delegate in Congress from the 
      Territory of the American Samoa, prepared statement of.....   265
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska; Chairman, Committee on Resources................   149
        Prepared statement of....................................   151

Statement of Witnesses:
    Allen, Mr. David B., Regional Director, U.S. Fish and 
      Wildlife Service, Alaska...................................   157
        Prepared statement of....................................   160
    Dalton, Penelope, Assistant Administrator for Fisheries, 
      National Marine Fisheries Service, National Oceanic and 
      Atmospheric Administration, U.S. Department of Commerce....   165
        Prepared statement of....................................   168
    Daniel, Alex, prepared statement of..........................   236
    Jack, Ms. Lianna, Executive Director, the Alaska Sea Otter 
      and Steller Sea Lion Commission............................   218
        Prepared statement of....................................   220
    Johnson, Mr. Charles, Alaska Nanuuq Commission on MMPA Co-
      Management.................................................   195
        Prepared statement of....................................   197
    Osterback, Mr. Alvin D., Aleut Marine Mammal Commission......   213
        Prepared statement of....................................   215
    Pungowiyi, Mr. Caleb, Chairman, MMPA Reauthorization 
      Committee, Indigenous People's Council for Marine Animals, 
      Kotzebue, Alaska...........................................   178
        Prepared statement of....................................   182
    Riedel, Ms. Monica, Executive Director and CEO, Alaska Native 
      Harbor Seal Commission.....................................   204
        Prepared statement of....................................   206
    Sparck, Ms. Michelle, pepared statement of...................   243


      HEARING ON: SECTION 118 OF THE MARINE MAMMAL PROTECTION ACT

                                 ------                                



                       House of Representatives,

    Subcommittee on Fisheries Conservation,
                                Wildlife and Oceans
                                    Committee on Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:15 a.m., in 
room 1334, Longworth House Office Building, Hon. Jim Saxton 
(chairman of the subcommittee) presiding.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Saxton. The Subcommittee on Fisheries Conservation, 
Wildlife and Oceans will come to order. Today we are discussing 
Section 118 of the Mammal Protection Act. The Secretary of 
Commerce is required to use take reduction teams when 
developing Take Reduction Plans. The Plans are supposed to 
reduce the take of marine mammals to insignificant levels. To 
date, five teams have been convened, the Gulf of Maine Harbor 
Porpoise Team, the Mid-Atlantic Coastal Gillnet Team, the 
Atlantic Offshore Cetacean Team, the Atlantic Large Whale Team, 
and the Pacific Offshore Cetacean Team.
    Members of the Take Teams are required to be knowledgeable 
of fisheries and they have included fishermen, environmental 
representatives, State fish and game personnel, Regional 
Council members, Scientists and NMFS personnel. I am interested 
in hearing from our witnesses today on the take reduction team 
process and whether NMFS implementation of the appropriate 
Plans have been successful in reducing the take of marine 
mammals. I would now ask unanimous consent that all 
subcommittee members be permitted to include their opening 
statements in the record without objection.
    I would now like to introduce our first panel of witnesses. 
On panel one we have Dr. Andrew Rosenberg, Deputy Assistant 
Administrator for Fisheries, NMFS, and Dr. John E. Reynolds, 
Chairman of the Marine Mammal Commission. If you gentlemen 
would like to take your place and let me remind you that our 
committee rules, please limit your opening statements to 5 
minutes and your entire statement will be recorded in the 
record. Andy Rosenberg, you may begin as you see fit.
    [Prepared statement of Mr. Saxton follows:]

    [GRAPHIC] [TIFF OMITTED] T6525.089
    
    [GRAPHIC] [TIFF OMITTED] T6525.090
    
    [GRAPHIC] [TIFF OMITTED] T6525.091
    
    [GRAPHIC] [TIFF OMITTED] T6525.092
    
    [GRAPHIC] [TIFF OMITTED] T6525.093
    
    [GRAPHIC] [TIFF OMITTED] T6525.094
    
    STATEMENTS OF ANDREW ROSENBERG, PH.D., DEPUTY ASSISTANT 
ADMINISTRATOR FOR FISHERIES, NATIONAL MARINE FISHERIES SERVICE; 
  JOHN E. REYNOLDS, PH.D., CHAIRMAN, MARINE MAMMAL COMMISSION

                 STATEMENT OF ANDREW ROSENBERG

    Mr. Rosenberg. Thank you very much, Mr. Chairman and 
members of the subcommittee, and thank you for inviting me to 
testify on Section 118 of the Marine Mammal Protection Act on 
reducing takes of marine mammals incidental to commercial 
fisheries. As you requested, I am here to discuss with you the 
merits of the marine mammal take reduction process as well as 
the positive impacts those take reduction plans and teams have 
had on marine mammal conservation and management. My written 
testimony, which is more extensive, of course, than my oral 
remarks, will be submitted for the record with your permission.
    To date, five take reduction teams have been established, 
as you noted, Mr. Chairman, focusing on nine fisheries and 22 
so-called strategic stocks of marine mammals, those stocks that 
we view are in urgent need of attention. I will go through each 
of the take reduction team plans in some detail. Again, more 
detail is in the written testimony. The Harbor Porpoise Take 
Reduction Plan combines recommendations developed by the Gulf 
of Maine and Mid-Atlantic Take Reduction Teams in order to 
reduce the take of harbor porpoise in fisheries to below the 
stock's PBR level or potential biological removal level of 483 
animals.
    And in December 1998, NMFS published a final rule which 
included some modification, minor modifications, of the team's 
recommendations for closures in the Gulf of Maine and the use 
of acoustic deterrent devices usually known as pingers to warn 
the animals off from the nets. The Mid-Atlantic Harbor Porpoise 
Take Reduction Team was formed a year later in 1997 to develop 
a plan for reducing incidental take of Harbor Porpoise in Mid-
Atlantic coastal gillnet fisheries.
    Although that team did not reach consensus, they did reach 
agreement on several key measures which were submitted in a 
report to NMFS and those measures have been included in the 
overall take reduction plan that I mentioned was implemented as 
a final rule. Those measures are specific to predominant 
coastal gillnet fisheries for monkfish and dogfish in the Mid-
Atlantic. In 1998, the final rule implementing gear 
modifications and net caps for large and small mesh gillnet 
fisheries and short-term closures for large mesh gillnet 
fisheries in the Mid-Atlantic were included then.
    We convened both teams around the beginning of this year to 
review progress and consider improvements in the Harbor 
Porpoise take reduction plan and recommendations included 
changes to fishing operations, pinger use, observer protocols 
and information exchange as well as communication with the 
team. The combined efforts of the Mid-Atlantic and Gulf of 
Maine Harbor Porpoise take reduction team recommendations and 
our implementation of those recommendations have led to 
reductions in the Harbor Porpoise bycatch in the Northeast 
gillnet fishery that is in the Gulf of Maine from approximately 
1,400 animals taken in 1995 to less than 400 animals in 1998.
    However, the total combined Harbor Porpoise bycatch for the 
entire region, including the Gulf of Maine down through the 
Mid-Atlantic is still greater than the PBR level because we 
estimate that 450 animals approximately were taken in the Mid-
Atlantic region 1998 so we still have some work to do in both 
regions to reduce Harbor Porpoise takes further throughout its 
range. The Pacific Offshore Cetacean Take Reduction Plan was 
prepared by a team that was formed in February 1996 to address 
incidental takes of several whale and dolphin stocks in 
California and Oregon, thresher shark/swordfish drift gillnet 
fishery.
    The final rule was implemented in October 1997 to address 
the bycatch reduction recommendations. We reconvened the team 
in 1998 and 1999 to examine additional data and see how well 
the plan was working. The plan overall has reduced the take of 
marine mammals by an order of magnitude from approximately 500 
a year in the early 1990's to about 50 in 1998. However, we 
still have concerns about a sperm whale because a sperm whale 
was caught in a drift net in this region fairly recently and we 
are reconvening the team to consider whether we need to take 
additional measures. There will be another meeting of that team 
in May of 2000.
    The Atlantic Large Whale Take Reduction Team was 
established in 1996 for developing a plan to reduce incidental 
take of large whales in the South Atlantic shark gillnet 
fishery, the Gulf of Maine and Mid-Atlantic lobster trap/pot 
fishery, the Mid-Atlantic gillnet fishery, and the Gulf of 
Maine sink gillnet fishery. That team did not reach a consensus 
on a recommendation, however, did report to NMFS and NMFS 
developed a final plan in implementing regulations. Based on a 
range of recommendations and considerable public input the 
interim final rule was published in 1997 and a final rule was 
published in 1999 after additional public comment.
    There were several whale species addressed in that plan. Of 
greatest concern is the critically endangered Northern right 
whale. Currently the potential biological removal level for 
right whales is less than one animal per year. However, the 
stock is at such a low level and in such critical circumstances 
of course we don't want to take any right whales. We have 
established an extensive series of disentanglement programs, 
education programs, as well as gear modifications and are still 
doing additional gear modification research to try to reduce 
the take of right whales.
    We have had some success with disentanglement efforts. 
However, we have in fact still had some entanglements and have 
additional work to do. The team reconvened in February of this 
year and we will have another meeting in April to try to 
address those concerns. Mr. Chairman, I have nearly come to the 
end of my time. The last team, however, was the Atlantic 
Offshore Cetacean Team. That plan was not implemented as a take 
reduction plan but was implemented in the course of fishery 
management regulations throughout the Northeast and Mid-
Atlantic with regard to offshore fisheries in that region.
    Overall, we found that the take reduction process is very 
complex and very controversial but the results have been very 
positive. This is a very difficult area both for the agency, 
the industry and the public to work through solutions to 
complex problems. We feel that that has been very positive. 
However, it has required a very significant amount of financial 
and staff resources and a lot of time for the teams as well as 
for the agency to develop workable solutions to some of these 
problems.
    We feel it has been successful although rather slower than 
I think anyone would have wished. For us to expand the take 
reduction team process, we would have to greatly expand our 
resources available to provide information to the teams that is 
probably the biggest stumbling block. Finally, we are convening 
additional teams as possible including a team for Atlantic 
bottlenose dolphins that we intend to convene this fall. We 
will apply the lessons learned from the other teams to any new 
teams we convene, of course, as well as the teams that are 
ongoing. Thank you, Mr. Chairman, and I apologize for going 
over my time.
    [Prepared statement of Mr. Rosenberg follows:]

    [GRAPHIC] [TIFF OMITTED] T6525.095
    
    [GRAPHIC] [TIFF OMITTED] T6525.096
    
    [GRAPHIC] [TIFF OMITTED] T6525.097
    
    [GRAPHIC] [TIFF OMITTED] T6525.098
    
    [GRAPHIC] [TIFF OMITTED] T6525.099
    
    [GRAPHIC] [TIFF OMITTED] T6525.100
    
    [GRAPHIC] [TIFF OMITTED] T6525.101
    
    [GRAPHIC] [TIFF OMITTED] T6525.102
    
    [GRAPHIC] [TIFF OMITTED] T6525.103
    
    [GRAPHIC] [TIFF OMITTED] T6525.104
    
    [GRAPHIC] [TIFF OMITTED] T6525.105
    
    [GRAPHIC] [TIFF OMITTED] T6525.106
    
    [GRAPHIC] [TIFF OMITTED] T6525.107
    
    [GRAPHIC] [TIFF OMITTED] T6525.108
    
    [GRAPHIC] [TIFF OMITTED] T6525.109
    
    [GRAPHIC] [TIFF OMITTED] T6525.110
    
    Mr. Saxton. Thank you, Dr. Rosenberg. Dr. Reynolds, please.

                 STATEMENT OF JOHN E. REYNOLDS

    Mr. Reynolds. Mr. Chairman, thank you for inviting the 
Marine Mammal Commission to provide its views on the 
effectiveness of Section 118 of the Marine Mammal Protection 
Act in reducing mortality and serious injury of marine mammals 
incidental to commercial fishing operations. To date the 
National Marine Fisheries Service has, as has been noted, 
established five take reduction teams, their establishment, 
their recommendations, actions to implement take reduction 
plans, and problems encountered are discussed in the detailed 
statement I have submitted for the record.
    Today I will confine my remarks to just some general 
observations. The Commission believes that the provisions 
pertaining to take reduction plans are fundamentally sound. 
First, Section 118 appropriately places the highest priority on 
developing plans for those stocks that are most affected by 
commercial fisheries and for those fisheries with the highest 
frequency of takes.
    Second, it establishes biologically based goals for 
reducing incident mortality and serious injury within specific 
timeframes. Third, it involves all stakeholders and applied a 
cooperative approach to developing take reduction plans thereby 
ensuring consideration of all views and building support for 
recommended remedial measures. Section 118 set an ambitious 
schedule for developing and implementing take reduction plans. 
Had all timing requirements been strictly adhered to mortality 
and serious injury of marine mammals incidental to commercial 
fisheries would have been reduced to below each stock's PBR 
level by September, 1996, or in the case of Gulf of Main Harbor 
Porpoises by April 1997.
    By now we would be well on our way to meeting the 0 
mortality rate goal. While there has been substantial progress 
incidental mortality and serious injury still exceeds some 
stock's PBR level and take reduction teams have yet to be 
established for some strategic stocks. There appear to be 
several reasons that it has taken longer to achieve the goals 
of Section 118 than originally anticipated. First, the service 
has finite resources to directive resolving marine mammal 
fishery interaction problems.
    Second, the issues are often complex and can affect the 
livelihood of many fishermen. For instance, the Atlantic large 
whale take reduction plan is to devise a way to eliminate 
essentially all mortality and serious injury of Northern right 
whales incident to the fisheries that use more than 3 million 
lobster traps and make tens of thousands of gillnet sets within 
the species range each year. For Gulf of Maine Harbor 
Porpoises, the take reduction team has had to contend with 
frequently shifting fishery closures implemented to protect 
fish stocks as it tries to design effective marine mammal base 
closures and gear requirements.
    Third, efforts to develop and implement effective plans are 
sometimes slowed by a need to conduct research and to 
understand the nature of the interactions and to design and 
test take reduction measures. For bottlenose dolphins research 
has been aimed at even more rudimentary questions to resolve 
uncertainties about stock structure. Although the service and 
others involved in the process have made considerable progress 
more remains to be done.
    We are particularly concerned about the urgent need to 
reduce incidental mortality of Northern right whales further. 
For this stock, any mortality may significantly affect 
prospects for recovery. We have urged the service to use its 
emergency rulemaking authority to implement fishery closures to 
eliminate hazardous fishing gear from critical habitat areas 
during those times when right whales are most likely to be 
present. There is also a pressing need to move forward with a 
take reduction team for bottlenose dolphins.
    I note one change to Section 118 that the commission 
believes is warranted. Currently the Act requires take 
reduction plans for all strategic stocks that interact with 
categories one or two fisheries. But some stocks are considered 
strategic solely because they are listed under the ESA or 
depleted under the MMPA, not because of a significant level of 
fishery-related mortality or serious injury. Where there is a 
very low level of taking incident to fisheries the stocks would 
benefit little from take reduction plans.
    To ensure wise use of limited agency resources the 
commission recommends that the Act be amended to specify that 
plans need not be prepared for those strategic stocks for which 
mortality and serious injury from fisheries are 
inconsequential. As we begin to reduce fisheries-related 
mortality and serious injury to biologically significant 
levels, we should not lose sight of other significant threats 
to marine mammals. For example, on average one Florida manatee 
is hit and killed by a motorboat every four or 5 days.
    Similarly, vessel strikes involving right whales present a 
serious conservation problem, and we are also becoming 
increasingly aware of the potentially significant adverse 
effects of point and non-point source pollution which may 
affect not only marine mammals but other important components 
of marine ecosystems so solving the fisheries questions won't 
necessarily protect all marine mammal stocks. Finally, most 
research and conservation actions under the Marine Mammal 
Protection Act are designed at present to respond to acute 
often controversial conservation issues.
    I believe we need to consider other approaches that respond 
not only to critical current situations but to recognize the 
need for broad-based interdisciplinary anticipatory research 
that will enable us to address potential conservation problems 
before they become serious. I would be pleased to explore these 
issues with you and to respond to any questions you may have. 
Thank you.
    [Prepared statement of Mr. Reynolds follows:]

    [GRAPHIC] [TIFF OMITTED] T6525.111
    
    [GRAPHIC] [TIFF OMITTED] T6525.112
    
    [GRAPHIC] [TIFF OMITTED] T6525.113
    
    [GRAPHIC] [TIFF OMITTED] T6525.114
    
    [GRAPHIC] [TIFF OMITTED] T6525.115
    
    [GRAPHIC] [TIFF OMITTED] T6525.116
    
    [GRAPHIC] [TIFF OMITTED] T6525.117
    
    [GRAPHIC] [TIFF OMITTED] T6525.118
    
    [GRAPHIC] [TIFF OMITTED] T6525.119
    
    [GRAPHIC] [TIFF OMITTED] T6525.120
    
    [GRAPHIC] [TIFF OMITTED] T6525.121
    
    Mr. Saxton. Thank you very much. Thank you both. I have one 
question which has troubled some people who have been involved 
in the process. Take reduction teams assemble themselves and 
examine biological sciences and other factors that are involved 
in a fishery and then make recommendations based upon some 
significant amount of time and effort and with all good 
intentions and submit their recommendations to NMFS, higher up 
NMFS officials who apparently were not part of the take 
reduction teams who don't have the ability and take advantage 
of the opportunity to change recommendations without having 
been part of the process. At least that is what is said to me.
    Is that the case and do you think that that part of the 
changes and the recommendations serve to encourage take 
reduction teams to continue to do serious work? Dr. Rosenberg.
    Mr. Rosenberg. Thank you, Mr. Chairman. First of all, I 
think that is not entirely the case although it is true that 
senior managers within the agency are not members of the take 
reduction team. Of course, we have quite a lot of staff who 
attend the team and participate in providing information to the 
team and so senior policymakers are fully briefed on the team's 
discussions and the issues that arise. Second, in several 
cases, for example, the large whale take reduction team, the 
team did not come to consensus.
    And so NMFS still must implement a take reduction plan to 
meet the responsibilities under the law so in many cases we 
have to make a decision on the actual implementation of the 
plan even if we don't have full consensus on the team. And, 
third, because the agency is accountable under the law and 
certainly in court and in many of these plans we may have been 
sued by one or more parties on various sides we have to 
determine whether the actual recommendations are in comport 
with the law and that is not something that generally the team 
analyzes so we need to evaluate the plan as submitted or 
recommendations if they don't come to full consensus for its 
overall comport with the law, which we do.
    We only make those changes that we feel are necessary in 
order to ensure that we are meeting the legal responsibilities 
and can defend it in court.
    Mr. Saxton. Dr. Reynolds, could you respond to the same 
question, please?
    Mr. Reynolds. Sure. Dr. Rosenberg's agency is most 
intimately involved with the process and I agree with his 
response. I guess coming at it from a somewhat different 
direction, as you indicated, Mr. Saxton, the process is a slow 
and painstaking one in which the various entities that are 
involved need to build trust and need to communicate well with 
one another. And I think to the greatest extent possible it is 
important that the appropriate players stay in touch with one 
another and that the communication be as open as possible on 
all the issues.
    I think that if outside opinions are being superimposed 
that I understand as Dr. Rosenberg said that on occasion there 
are legal questions and all that come up that simply cause 
differences but I think it is important that you build an 
esprit de corps within the team and that they be able to move 
forward as much as possible as a unit to address some of these 
really complex problems.
    Mr. Saxton. Well, obviously there is a need for final take 
reduction plans to be workable and to have as much thought put 
into the development and implementation of them as possible. I 
guess my question is do you think that an interaction with 
higher level NMFS personnel and perhaps legal counsel from NMFS 
whether the process would be better served if those 
interactions took place at an earlier time, perhaps during the 
time the take reduction team is studying and formulating 
recommendations. Dr. Rosenberg.
    Mr. Rosenberg. I think that that is a very important point 
and something that we have begun to address and probably need 
to focus some more attention on. I have attended large whale 
take reduction team meetings and Harbor Porpoise take reduction 
team meetings and we certainly to the extent possible having 
legal counsel available during the team meetings although that 
is not possible in every case. But we have heard back from the 
teams in our survey of team members that the two things they 
want more of, I would have to say, is they all want more 
information on which to base their recommendations, and we do 
the best we can in terms of providing such information and 
trying to do a better job of it and they want more 
communication with the agency back and forth preferably as high 
a level as they can so we will try to work toward those goals.
    Mr. Saxton. Now you say that an effort is going to be made 
or is being made to implement a process where these 
decisionmakers would be part of the early on process where 
possible. Where it is not possible, is it also an alternative 
you have looked at to have some kind of a review on an ongoing 
basis if it is not possible for them to actually be part of the 
meeting and the discussion. At least it seems to me 
difficulties which may arise along the way ought to be pointed 
out to the team during its deliberations rather than to wait 
until their recommendations have been made and then just 
arbitrarily change them.
    Mr. Rosenberg. I think we invariably do point out issues of 
concern during the process and sometimes the teams take those 
on board and sometimes they do not. That is their prerogative, 
of course. That is why we have both policy staff and scientific 
staff attending the team meetings and legal staff when we can. 
With regard to senior managers attending, the regional 
administrators often attend for a portion of the meeting and as 
I have noted I have attended some and I believe Ms. Dalton has 
attended possibly one of the meetings in the past year.
    But again we have heard from the team members. They want to 
have more interactive feedback along the way and I think we 
will try to build on that in the future and improve that 
process.
    Mr. Saxton. Dr. Reynolds, do you have anything to add?
    Mr. Reynolds. Yes. I am sorry. I misunderstood what you 
were asking at first. I agree that it would be very useful to 
bring as many people into the mix within reason as possible. I 
think that to keep things on the floor at the meetings is a 
very useful exercise. I would add that one of the constraints 
on development and maintaining momentum with the take reduction 
teams that both Dr. Rosenberg and I mentioned is the lack of 
available agency resources and so I think that--I think what 
you are suggesting makes all the sense in the world but it will 
stretch something that is already in finite supply. I think 
that needs to be looked at.
    Mr. Saxton. Thank you very much. Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Mr. Chairman. I guess following 
up on the line of questions from the Chairman and just so it is 
clear in my mind, how many take reduction teams are there?
    Mr. Rosenberg. There have been five.
    Mr. Gilchrest. There are five take reduction teams. How 
many on each team, how many people?
    Mr. Rosenberg. I would have to look it up.
    Mr. Gilchrest. Are there five people, ten people?
    Mr. Rosenberg. No, it is quite a bit larger than that.
    Mr. Gilchrest. Twenty people?
    Mr. Rosenberg. Between 10 and 20.
    Mr. Reynolds. 20 to 40.
    Mr. Gilchrest. 20 to 40 people. Who are they? Who makes up 
these teams?
    Mr. Rosenberg. The teams are drawn from interested members 
of industry, sometimes academia conservation groups from the 
region, usually from the region that is affected by the 
fishery. Almost invariably say in the Northeast they will be 
people within that area, fairly balanced between conservation 
organizations and public interest groups and industry groups 
directly.
    Mr. Gilchrest. And so these five teams represent how many 
fisheries?
    Mr. Rosenberg. There are nine fisheries that are included 
under the five teams and 22 stocks of marine mammal.
    Mr. Gilchrest. And how many fisheries have plans now?
    Mr. Rosenberg. Well, one of the take reduction teams, the 
Atlantic Offshore Cetacean Team, we didn't implement a specific 
take reduction plan but the elements were addressed in other 
portions of fisheries management so you could say in a form all 
nine fisheries have--actions have been taken to reduce take in 
all of those nine fisheries. I believe that is correct. And we 
will move forward with additional fisheries as we can.
    Mr. Gilchrest. And so there is some implementation in each 
of the nine fisheries?
    Mr. Rosenberg. Yes.
    Mr. Gilchrest. Where are the nine fisheries?
    Mr. Rosenberg. There is one set of fisheries----
    Mr. Gilchrest. Are they all on the East Coast?
    Mr. Rosenberg. No. One is on the Pacific Coast. The Pacific 
Offshore Cetacean Team addressed the Oregon and California 
gillnet fisheries and the rest are on the Atlantic Coast from 
Maine to Florida but primarily in the Northeast states down 
through the Mid-Atlantic.
    Mr. Gilchrest. So when the implementation of those plans--
when those plans have been implemented, is there a move to the 
Gulf of Mexico, are there any problems with marine mammals in 
the Gulf of Mexico?
    Mr. Rosenberg. There are and we are in the process of 
trying to convene a team on bottlenose dolphins. It is rather 
difficult because the information is quite slim. That would 
include both the South Atlantic coast as well as the Gulf Coast 
in that team and there are some scientific questions on how the 
stocks of bottlenose dolphins relate in different areas.
    Mr. Gilchrest. Now when the teams get together and do their 
studying and collect data and come up with a consensus I guess 
at least for a plan. What is the interaction with the fisheries 
management council for that particular region with the take 
reduction teams? Is there much dialog between the management 
council?
    Mr. Rosenberg. There is dialog although it is up to each 
individual council to decide and the team to decide the form of 
that. For example, in New England for the Gulf of Maine gillnet 
fishery there was a marine mammal committee on the council that 
specifically asked for reports on both the gillnet fishery for 
Harbor Porpoise as well as the large whale take reduction plan. 
There were regular reports to the council from the take 
reduction team and at the point of implementation of the Harbor 
Porpoise plan there was substantial discussion over the 
closures that were being implemented for fish protection in the 
Gulf of Maine or Northeast areas that would need it for Harbor 
Porpoise protection.
    Mr. Gilchrest. I would imagine that you would encourage a 
dialog between the take reduction team and the management 
council because I guess inevitably there is going to be an 
effect on the fish stock because of the plan.
    Mr. Rosenberg. That is certainly the case and in fact we 
would like--we have implemented measures under not only the 
Marine Mammal Protection Act itself but also under the 
Magnuson-Stevens Act measures that serve to protect marine 
mammals specifically. Harbor Porpoise measures were implemented 
under Magnuson-Stevens which specifically includes the council 
process. For some of the other fisheries the same thing so 
there is an intimate relationship. However, it varies a little 
bit from council to council depending on their operating 
desires.
    Mr. Gilchrest. I see. Thank you. Dr. Reynolds, let me see 
if I can find the question. You made a comment that there has 
not been take reduction teams appointed for several fisheries. 
Is that Alaska or the Gulf of Mexico or other areas?
    Mr. Reynolds. I believe what I said was that there are--
there was a need for a take reduction team for some strategic 
stocks referring to the marine mammals that needed to be looked 
at and specifically the one----
    Mr. Gilchrest. What would they be and where would----
    Mr. Reynolds. The one for which I think the most urgent 
need exists, and again Dr. Rosenberg referred to this as 
something that is moving forward for bottlenose dolphins in the 
southeastern United States.
    Mr. Gilchrest. I guess my time is up. Thank you, Mr. 
Chairman.
    Mr. Saxton. Thank you, Mr. Gilchrest.
    Mr. Pombo. No questions.
    Mr. Saxton. We have no further questions at this time. I 
thank both of you for being with us today. This is an extremely 
interesting and serious subject and we appreciate very much 
your attention----
    Mr. Gilchrest. Mr. Chairman, could I just ask one more 
question since the gentleman from California yielded his time?
    Mr. Saxton. Sure.
    Mr. Gilchrest. Thank you. Dr. Reynolds, you made a comment 
about the full range of issues that affect marine mammals from 
big steam ship vessels coming from Europe for the right whales, 
recreational boaters for the manatee, point and non-point 
source pollution for a number of these species. Is it your 
feeling--I don't know whose area of responsibility this would 
be. If you look at--since we are discussing take reduction 
teams, is it your recommendation that these teams given the 
full big picture of marine mammals should also include these 
things into their plans?
    Mr. Reynolds. Not necessarily. If you included all the 
possible factors that were affecting certain stocks and brought 
in all the appropriate stakeholders, you would probably have an 
unmanageably large group that would probably not make much 
progress. What the intent of my statement was to keep before 
you the thought that yes, progress is being made in terms of 
incidental take of marine mammals associated with commercial 
fisheries but incidental to other human activities marine 
mammals get taken and some stocks get taken in far larger 
numbers.
    Even endangered species like manatees and right whales get 
taken more by non-commercial fishery-related activities than 
they do by the commercial fisheries. And so even though we are 
making nice progress perhaps with certain of the stocks and 
certain of the issues there is a long way to go still to insure 
the safety of many of the stocks and species of marine mammals. 
I think that with the boating in Florida, for example, that 
there is a recovery plan in place. A new iteration of it is 
being developed right now but that recovery plan deals with a 
gamut of issues.
    I think that conceivably for manatees in Florida a process 
similar to a take reduction process for boats might be very 
effective. It is a very tough question though.
    Mr. Gilchrest. Thank you. Dr. Rosenberg.
    Mr. Rosenberg. Thank you, Congressman. I just wanted to add 
that some of the other factors affecting marine mammal stocks 
that we do have other teams or working groups, for example, to 
deal with the ship strike issue on large whales there is a 
recovery plan that is--a recovery team that is working toward 
developing measures to reduce ship strikes. There is a 
notification system that has been developed and we have 
implemented so shipping knows where the whales are located.
    Similarly for other kinds of threats to marine mammals, we 
do have other programs. We do not include them in the take 
reduction process because we want to focus that on fishing 
effects according to Section 118. On pollution we have the 
marine mammal health and stranding program in cooperation with 
National Ocean Service that tries to at least investigate 
sources of mortality of animals that appear that on the 
beaches, stranded on the beaches and so on.
    Mr. Gilchrest. Thank you. I was just curious about--Dr. 
Rosenberg, I think it was you that mentioned warning devices. 
Is that a loud horn? What are warning devices?
    Mr. Rosenberg. I am sorry. Acoustic deterrent devices that 
are used on gillnets. Essentially what they are is a sealed 
tube that has a little device that make a click at a certain 
frequency and sound level. It is battery operated and it is 
attached to the nets and apparently marine mammals because they 
locate by sound, echo locate, they serve as a warning device 
and have reduced the take in some fisheries for some kinds of 
marine mammals successfully because it enables the animals to 
actually see the net better.
    Some people have--the information is a little bit 
equivocal. Some people have claimed that other mammals, those 
same devices seem to serve as a dinner bell, here is a net with 
fish in it, come and get it, and that has had a negative impact 
but overall the impact has been very positive on helping marine 
mammals avoid the fishing gear and we have seen reductions in 
take.
    Mr. Gilchrest. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Saxton. The gentlemen, thank you again for being with 
us. We appreciate it very much. We will now move on to our 
second panel. On panel two we have Pat White of the Maine 
Lobstermen's Association, Nina Young from the Center for Marine 
Conservation, Bill Foster of the Mid-Atlantic Coastal Gillnet 
Industry, Sharon Young of the Humane Society of the U.S., and 
John Calambokidis of the Cascadia Research Collective.
    I would just like to point out that we have a 5-minute rule 
that we try to go by and your written testimony in its entirety 
will be included in the record. Mr. White, you may begin as you 
find yourself ready.

 STATEMENTS OF PAT WHITE, MAINE LOBSTERMEN'S ASSOCIATION; NINA 
    YOUNG, CENTER FOR MARINE CONSERVATION; BILL FOSTER, MID-
ATLANTIC COASTAL GILLNET INDUSTRY; SHARON YOUNG, HUMANE SOCIETY 
  OF THE UNITED STATES; JOHN CALAMBOKIDIS, CASCADIA RESEARCH 
                           COLLECTIVE

                     STATEMENT OF PAT WHITE

    Mr. White. Good morning, Mr. Chairman, and members of the 
subcommittee. I address you today as a member of the Large 
Whale Take Reduction Team initiated by the National Marine 
Fisheries Service Office of Protected Resources under the 
authority of the Marine Mammal Protection Act, Section 118. In 
addition, I am Executive Director of The Maine Lobstermen's 
Association, as well as a commercial lobsterman.
    I strongly support the concept and intent of the TRT as 
established in the 1994 reauthorization of the MMPA. In the 
case of the Large Whale Take Reduction Team, however, the 
process has been flawed and the results ineffective, both in 
preventing entanglements of large whales in fishing gear and 
giving the fishing industry the tools, techniques and support 
necessary to meet the goals of the take reduction plan.
    It is the clear intent of the MMPA that the goal of a TRP 
is both to protect the marine mammals and to give fishermen the 
skills and technologies needed to continue their chosen 
professions. This intent is spelled out in Section 118. To 
date, this necessary action and support has not been 
sufficiently forthcoming from NMFS. Their inability to 
effectively implement the key provisions of MMPA has placed 
both large whales and the fixed-gear fishing industry of the 
Atlantic states at an unacceptable risk.
    More specifically, NMFS has repeatedly failed to meet the 
deadlines for action as mandated in 118. The failure to 
implement the measures proposed in the interim final rule has 
placed the fishing industry at risk of arbitrary and 
insupportable court-ordered actions. Funding essential for the 
effective implementation of the suite of measures agreed upon 
and recommended by the TRT has been either inadequate or 
entirely absent.
    These measures include research and development of 
alternative fishing gears, the establishment and operation of a 
coast-wide network to monitor the movements of large whales and 
to alert fishermen when they are present on their fishing 
grounds, the training of large numbers of volunteer fishermen 
in the proper methods of reporting and responding to 
entanglements and to assist in disentanglements, the 
establishment and equipment of a greater number of specialized 
entanglement teams, the research by scientists into those 
aspects of the whale behavior that lead to entanglements, and 
finally the technology and techniques necessary to track 
entangled whales until they can be successfully disentangled.
    This lack of essential and meaningful support from NMFS is 
in violation of 118 which clearly directs that funding priority 
be given to those stocks of marine mammals most at risk. 
Unfortunately, the stock of north Atlantic right whale is the 
most endangered of all marine mammals and, by law, the 
development and implementation of an effective TRP should not 
be compromised by a lack of funding, especially when one notes 
that appropriation to NMFS by Congress for implementation of 
MMPA was over $34 million for fiscal year 1999.
    Also troubling is the apparent inability of NMFS staff 
assigned to the Large Whale Take Reduction Team to follow 
through on requests by the team for specific information, data 
sets or analyses. This inevitably leads me to question the 
standing and credibility of the TRT process within the agency. 
It would not be hard to come to a conclusion, as some observers 
have, that NMFS is simply going through the motions to 
minimally comply with Section 118 of the MMPA and to place a 
thin veneer of objectivity over decisions already made within 
the Office of Protected Resources.
    I regret that it has become necessary to deliver this 
critical and negative assessment of the Large Whale Take 
Reduction Team and NMFS' failure to act in an effective manner 
to both protect whales and support the fishing industry. In 
closing, I repeat my strong support for the concept and the 
intent of Section 118 of the Marine Mammal Protection Act and 
urge the committee to take whatever steps are necessary to 
ensure that NMFS also gives its full and open support. I thank 
you for this opportunity and would be happy to answer any 
questions.
    [Prepared statement of Mr. White follows:]

    [GRAPHIC] [TIFF OMITTED] T6525.122
    
    [GRAPHIC] [TIFF OMITTED] T6525.123
    
    [GRAPHIC] [TIFF OMITTED] T6525.124
    
    Mr. Saxton. Thank you very much. Ms. Young.

                    STATEMENT OF NINA YOUNG

    Ms. Nina Young. Mr. Chairman and members of the 
subcommittee, thank you for the opportunity to appear before 
you today to present our views on the take reduction team 
process under the Marine Mammal Protection Act. My name is Nina 
Young. I am the Director of Marine Wildlife Conservation for 
the Center for Marine Conservation. CMC has participated on all 
five take reduction teams and in 1993 we also participated in 
negotiations with the fishing industry to develop the proposal 
that ultimately became the 1994 amendments to the Act.
    The take reduction team process was a direct outgrowth of 
those negotiations primarily because the fishing industry and 
the environmental community firmly believed that they needed a 
multi-party negotiation process to devise strategies to 
eliminate the entanglement of marine mammals in commercial 
fishing gear while maintaining viable fisheries. Today I will 
focus my remarks on the positive points of the take reduction 
teams and my concerns about the NMFS implementation of the take 
reduction plans.
    My detailed written testimony, which I have submitted for 
the record, reviews each of the take reduction teams. Despite 
the difficulties in balancing the need to reduce marine mammal 
kills and minimize economic impacts to fishermen, I firmly 
believe that the take reduction team process works. It has 
successfully produced three consensus plans while establishing 
greater trust and working relationship among the various 
interest groups that have participated in the process.
    Each take reduction team has its own dynamic but in every 
case the facilitators were critical in moving the team from 
conflicts toward consensus. While there was significant debate 
about the quality of the population and by catch estimates the 
teams that were most successful were those that moved quickly 
through their concerns about the science and into the analysis 
and development of take reduction strategies. The size of the 
team, having sufficient time to negotiate, the number of 
meetings, providing participants with the ability to express 
their points of view, adequate scientific support are all 
important factors to the team's success.
    To improve the process CMC recommends that there be two 
additional meetings, one to review the final plan before it is 
submitted to NMFS and another during the comment period to 
provide feedback to NMFS. Still the process produced creative 
research recommendations and strategies to reduce marine mammal 
take in fishing gear. In terms of implementation, NMFS is still 
struggling with the deadlines for the implementation, how to 
translate the team's recommendations into regulations, the role 
of the take reduction teams, coordination between the teams and 
the fishery management councils, and its own level of 
commitment to the process.
    NMFS has yet to realize that consensus is hard won and from 
the perspective of the individuals that engage in this process 
the take reduction teams are critically important to their 
livelihood and to the conservation of the species. Therefore, 
NMFS must view this process as a priority partnership that 
includes NMFS and all the various stakeholders. The ground 
rules require that all participants have the authority to 
commit their organizations to the consensus.
    NMFS must also meet this requirement as well. NMFS 
representatives must be active participants that are able to 
legally evaluate the take reduction strategies and commit NMFS 
to the consensus. They must also be able to advise the team as 
to whether the consensus strategies will meet the Act's 
targets, are easily implemented and enforced and whether the 
research recommendations are achievable. It undermines the 
process when team members conclude the negotiations with the 
false expectations that their recommendations will be 
implemented.
    CMC recommends that a regional administrator, a 
representative from NOAA general counsel, and NMFS enforcement 
officers be present during the negotiation when the consensus 
is being formed. In further meeting its commitments, NMFS must 
do the following. They must implement the take reduction plans 
within the statutory timeframes, improve coordination between 
the take reduction plans and the fishery management plans, 
provide the necessary resources to achieve much needed observer 
coverage, improve the quality of the scientific data, and carry 
out the plan's research recommendation.
    To accomplish this, NMFS needs to dedicate greater 
resources to the plan's implementation and greater commitment 
to the process. Some take reduction teams appear to be 
successful. However, overall it is premature to assess the 
effectiveness of these plans since most have only been 
implemented for a year. Nevertheless, the participants 
generally view the take reduction team as a favorable 
alternative to the adversarial notice and comment rulemaking.
    The downfall in the process is NMFS' implementation. If 
take reduction teams are truly to be successful, NMFS must 
heighten its level of commitment and restore the participants' 
faith in this partnership. Thank you for your attention and I 
will be happy to answer any questions.
    [Prepared statement of Ms. Nina Young follows:]

    [GRAPHIC] [TIFF OMITTED] T6525.125
    
    [GRAPHIC] [TIFF OMITTED] T6525.126
    
    [GRAPHIC] [TIFF OMITTED] T6525.127
    
    [GRAPHIC] [TIFF OMITTED] T6525.128
    
    [GRAPHIC] [TIFF OMITTED] T6525.129
    
    [GRAPHIC] [TIFF OMITTED] T6525.130
    
    [GRAPHIC] [TIFF OMITTED] T6525.131
    
    [GRAPHIC] [TIFF OMITTED] T6525.132
    
    [GRAPHIC] [TIFF OMITTED] T6525.133
    
    [GRAPHIC] [TIFF OMITTED] T6525.134
    
    [GRAPHIC] [TIFF OMITTED] T6525.135
    
    [GRAPHIC] [TIFF OMITTED] T6525.136
    
    [GRAPHIC] [TIFF OMITTED] T6525.137
    
    [GRAPHIC] [TIFF OMITTED] T6525.138
    
    [GRAPHIC] [TIFF OMITTED] T6525.139
    
    [GRAPHIC] [TIFF OMITTED] T6525.140
    
    [GRAPHIC] [TIFF OMITTED] T6525.141
    
    [GRAPHIC] [TIFF OMITTED] T6525.142
    
    [GRAPHIC] [TIFF OMITTED] T6525.143
    
    [GRAPHIC] [TIFF OMITTED] T6525.144
    
    [GRAPHIC] [TIFF OMITTED] T6525.145
    
    [GRAPHIC] [TIFF OMITTED] T6525.146
    
    [GRAPHIC] [TIFF OMITTED] T6525.147
    
    [GRAPHIC] [TIFF OMITTED] T6525.148
    
    [GRAPHIC] [TIFF OMITTED] T6525.149
    
    [GRAPHIC] [TIFF OMITTED] T6525.150
    
    [GRAPHIC] [TIFF OMITTED] T6525.151
    
    [GRAPHIC] [TIFF OMITTED] T6525.152
    
    [GRAPHIC] [TIFF OMITTED] T6525.153
    
    [GRAPHIC] [TIFF OMITTED] T6525.154
    
    [GRAPHIC] [TIFF OMITTED] T6525.155
    
    [GRAPHIC] [TIFF OMITTED] T6525.156
    
    [GRAPHIC] [TIFF OMITTED] T6525.157
    
    [GRAPHIC] [TIFF OMITTED] T6525.158
    
    [GRAPHIC] [TIFF OMITTED] T6525.159
    
    [GRAPHIC] [TIFF OMITTED] T6525.160
    
    [GRAPHIC] [TIFF OMITTED] T6525.161
    
    [GRAPHIC] [TIFF OMITTED] T6525.162
    
    Mr. Saxton. Thank you very much. Mr. Foster.

                  STATEMENT OF WILLIAM FOSTER

    Mr. Foster. Thank you, Mr. Chairman and members of the 
committee. The title of coastal gillnet industry is really a 
category rather than a group. I am here representing and 
speaking solely for myself as a person who has participated in 
a large whale team and continues to try to be active in the 
process. My oral comments are the same as the written comments 
that I will run through briefly. In fact, I will go ahead and 
just jump to the recommendations because I think you have 
covered it as far as how the teams have worked.
    My recommendations to improve the take reduction team 
process would be, No. 1, to calculate the Potential Biological 
Removal for a stock using the mean population estimate rather 
than the minimum population estimate. That is, use the best 
available scientific information rather than the worst 
available scientific information. The only reason to use a 
minimum population estimate is to create a crisis to promote an 
agenda or generate funding. This introduction of bias into 
fishery stock assessments is labeled the Precautionary Approach 
by NMFS.
    No. 2, develop plans which assess the cumulative impacts of 
regulations on both marine mammals and fishermen. Plans and 
regulations are being layered on top of each other with no 
concern for their cumulative impacts. Even though NMFS does not 
attempt to comply with the Regulatory Flexibility Act with 
regards to the cumulative impacts of regulations, the Act does 
require that those impacts on fishermen to be considered. 
Common sense requires that we do the same for marine mammals.
    No. 3, NMFS should assign one person solely to each take 
reduction team. That person should be given both the 
responsibility and the authority to negotiate and make 
decisions for the agency. One person with one secretary should 
be able to handle all the work associated with one plan and one 
take reduction team. There would be enough biologists freed up 
by this action to do all the research that needs to be done. 
NMFS has some very good people if they could get out of 
meetings long enough to do some research.
    One other comment I would like to be is the reference 
toward strategic stocks. Some of these strategic stocks such as 
bottlenose dolphins are there because of the science that is 
available. Bottlenose dolphin is strategic stock because of the 
die off back in 1988, I think it was, supposedly killed 
approximately 50 percent of the population but that depends on 
what the population was and that population estimate is very 
flawed and probably would not be a strategic stock if it were 
not for that assumed low population level.
    The hardest thing for the fishermen to deal with is that 
some of these things are locked in before we get into the take 
reduction process. This Potential Biological Removal locks in 
the number of animals that we are dealing with and where it is 
not based on the best information it makes it very hard to try 
to cooperate to achieve a goal that is realistic. The idea that 
we are trying to get all marine mammal interactions to 
essentially a 0 level rather than treating marine mammals as 
renewable resources. For some reason, we put them up on a level 
where they are not supposed to be touched and rather being part 
of the overall ecosystem that we are a part of.
    And those things are locked into the Act apparently and to 
the extent that they are locked in, they make it very difficult 
to be really effective in trying to go ahead and reduce these 
interactions. Thank you.
    [Prepared statement of Mr. Foster follows:]

    [GRAPHIC] [TIFF OMITTED] T6525.163
    
    Mr. Saxton. Thank you very much. We will now move on to Ms. 
Sharon Young.

                   STATEMENT OF SHARON YOUNG

    Ms. Sharon Young. Thank you, Mr. Chairman, members of the 
subcommittee. I am Sharon Young and I am a marine mammal 
consultant for The Humane Society of the United States. On 
behalf of the 7.3 members--million members of the Humane 
Society, we are really a lot bigger than seven, I am grateful 
for the opportunity to address you and to provide our thoughts 
on Section 118 and particularly where it has been less than 
effective in reducing marine mammal mortality.
    I would like to raise a couple of different points. One of 
them is that Section 118 does not include any mandate for 
including recreational fisheries and take reduction plans 
despite the fact that many of these fisheries use the same type 
of gear as commercial fisheries and are known to kill marine 
mammals. We believe that they should be included as part of the 
take reduction process. Additionally, the mandates of Section 
118 are often undermined by funding shortfalls.
    The National Marine Fisheries Service has recently resorted 
to taking money away from critical research and take reduction 
team implementation line items in order to find base operating 
expenses. This is not acceptable. The agency needs to identify 
and advocate for its fiscal needs clearly so that Congress can 
grant funds adequate to carry out the mandates of Section 118. 
We are particularly concerned, however, with NMFS' failure to 
meet statutory deadlines which is four stakeholder groups to 
turn to Congress and to litigation although the amendments were 
designed to obviate this need.
    As previously mentioned, the deadlines under Section 118 
would have brought fisheries to PBR by October 1996 but because 
of delays within the agency no fisheries were actually able to 
comply with this mandate. In fact, no take reduction plan had 
even published by that date. Despite Congress granting an 
extended date for compliance for the Gulf of Maine gillnet 
fishery Harbor Porpoise were still being killed at a rate over 
three times their PBR when the April 1997 deadline came and 
went without any publication of take reduction plan.
    NMFS has never convened teams for two of the stocks that it 
itself identified as priorities. Four of them have been dogged 
by litigation or threat of litigation as a result of delays and 
insufficiency of response and only one has actually met the 
intent of the law. On the Atlantic Coast they have been slow to 
convene teams. Recommendations made by teams are tabled without 
action unless there is court oversight. The Atlantic large 
whale team was convened subsequent to litigation and litigation 
dogs it to this day while the very survival of North Atlantic 
right whales is imperiled.
    The Harbor Porpoise team, considered by NMFS to be its 
highest priority was convened late and despite submitting 
consensus recommendations on time no plan was published for 
over 2 years until litigation was filed that compelled NMFS to 
release the plan. Three years after submitting a consensus plan 
to the National Marine Fisheries Service the Atlantic Offshore 
Team still has had no plan published. Most of its 
recommendations do not exist and the driftnet fishery that was 
part of the team was closed without any attempt to determine 
whether a take reduction plan might have reduced its 
interactions.
    Four years after the MMPA mandated a time line there is 
still no take reduction team for bottlenose dolphins to deplete 
its stock with takes in excess of their PBR. Following threats 
of litigation by the Humane Society, NMFS now promises to 
convene a take reduction team this year. There is still no team 
for stellar sea lions in Alaska. These delays have cost the 
lives of hundreds of marine mammals and it undermines 
confidence in the take reduction process. The amendments put a 
system in place and promotes collaborative work by 
stakeholders. The system can work.
    The Pacific Offshore Team is in part an example of this. It 
met, reached consensus, had its plan published promptly and its 
methods have been largely successful. Where the system fails, 
it is not a result of the inability of stakeholders to 
comprehend the problem and to develop a solution. In most cases 
teams have reached consensus on the majority of their 
recommendations and when plans are implemented they are 
generally effective. The take reduction teams have not failed, 
rather the National Marine Fisheries Service has failed the 
take reduction teams.
    As previously mentioned, funding issues sometimes hamper 
the agency's ability to take timely action and enforce its 
mandates but funding alone is not enough to explain the failure 
of NMFS to enact plans. An example of this fact is that 
litigation was necessary to force publication of a take 
reduction plan for Harbor Porpoise although the plan had been 
complete for a year prior to the suit. This illustrates I think 
a different problem, the fact that the agency has a dual 
mandate. It is charged with promoting fisheries and conserving 
fish stocks as well as protecting marine mammals and these 
goals are often in conflict.
    The conflict in mandates which appears greatest on the East 
Coast often results in NMFS taking insufficient action to 
protect the marine mammals. While the Humane Society urges 
Congress to appropriate sufficient funds to allow NMFS to carry 
out its mandates, we also urge you to more directly monitor and 
oversee the agency's actions. Section 118 of the MMPA was a 
product of years of negotiation, compromise and consensus but 
without congressional and constituent oversight NMFS 
consistently fails to carry out recommendations that so many of 
us have worked so hard to achieve.
    We urge you to watch over the National Marine Fisheries 
Service because without your insistence that NMFS obey your 
laws, we fear that the agency will continue to have its 
mandates implemented by the judicial branch of the government, 
which is an inefficient and dangerous standard operating 
procedure. We thank you for seeking constituent input regarding 
the implementation of these amendments. We have submitted more 
detailed written recommendations that outline additional 
problems with Section 118 and we ask you to take them into 
consideration as well. Thank you.
    [Prepared statement of Ms. Sharon Young follows:]

    [GRAPHIC] [TIFF OMITTED] T6525.164
    
    [GRAPHIC] [TIFF OMITTED] T6525.165
    
    [GRAPHIC] [TIFF OMITTED] T6525.166
    
    [GRAPHIC] [TIFF OMITTED] T6525.167
    
    [GRAPHIC] [TIFF OMITTED] T6525.168
    
    [GRAPHIC] [TIFF OMITTED] T6525.169
    
    [GRAPHIC] [TIFF OMITTED] T6525.170
    
    [GRAPHIC] [TIFF OMITTED] T6525.171
    
    [GRAPHIC] [TIFF OMITTED] T6525.172
    
    [GRAPHIC] [TIFF OMITTED] T6525.173
    
    [GRAPHIC] [TIFF OMITTED] T6525.174
    
    [GRAPHIC] [TIFF OMITTED] T6525.175
    
    [GRAPHIC] [TIFF OMITTED] T6525.176
    
    [GRAPHIC] [TIFF OMITTED] T6525.177
    
    [GRAPHIC] [TIFF OMITTED] T6525.178
    
    [GRAPHIC] [TIFF OMITTED] T6525.179
    
    [GRAPHIC] [TIFF OMITTED] T6525.180
    
    [GRAPHIC] [TIFF OMITTED] T6525.181
    
    [GRAPHIC] [TIFF OMITTED] T6525.182
    
    [GRAPHIC] [TIFF OMITTED] T6525.183
    
    [GRAPHIC] [TIFF OMITTED] T6525.184
    
    [GRAPHIC] [TIFF OMITTED] T6525.185
    
    [GRAPHIC] [TIFF OMITTED] T6525.186
    
    [GRAPHIC] [TIFF OMITTED] T6525.187
    
    [GRAPHIC] [TIFF OMITTED] T6525.188
    
    [GRAPHIC] [TIFF OMITTED] T6525.189
    
    Mr. Saxton. Thank you very much, Ms. Young. Mr. 
Calambokidis. Did I do that right?
    Mr. Calambokidis. That was very good.
    Mr. Saxton. Thank you.

                 STATEMENT OF JOHN CALAMBOKIDIS

    Mr. Calambokidis. Thank you for the opportunity to testify 
before the subcommittee. I have submitted longer written 
testimony. My testimony highlights the experience of one of the 
take reduction teams, the Offshore Cetacean Take Reduction Team 
in the Pacific, and I was the scientific--one of the two 
scientific representatives on that committee. Ours was one of 
the smaller teams that consisted of four representatives from 
the Offshore Drift Gillnet Fishery, three members of 
conservation groups. We had two scientists with independent 
bodies. One of them myself. And we also had members of a 
Pacific State Marine Fishery Commission, the California 
Department of Fish and Wildlife and National Marine Fisheries 
Service.
    The situation we faced in the Pacific was an offshore drift 
gillnet fishery targeting thresher shark and swordfish. There 
were a number of cetaceans and pinnipeds, seals and sea lions 
taken in this fishery and there were six different species that 
were deemed critical, which means their level, the number of 
animals killed in the fishery exceeded what was thought to be 
able to maintain their populations at optimal levels.
    So when the team convened in 1996 our first priority was to 
look at how to reduce those mortalities in the first 6 months 
and even though I think the Pacific team was one of the more 
successful teams that time line was clearly one that would be 
difficult to achieve. The fishery only operated on a seasonal 
basis. To be able to meet and put those into effect that 
rapidly wasn't possible but we were able to make a great deal 
of headway. The team was one of the smaller of the five take 
reduction teams and I think that helped in its success. We have 
between 12 and 15 members on the team and very quickly in the 
first 6 months where we are meeting on a monthly basis we are 
able to work and establish some trust between the different 
interest groups that were there.
    And as a scientist, I was particularly pleased to see this 
group working very closely with the scientists and with the 
data and making a direct application between the science and 
how that applied to the animals that were taken, why they were 
being taken, and how to reduce them. We were able to come up 
with recommendations. The four primary recommendations that 
came out of the team focused on, first of all, trying to keep 
the fishery from growing until the marine mammal problem was 
solved. This was something the fishing groups on the panel 
agreed with so we wanted to make sure that new permits were not 
being issued for the fishery.
    Secondly, we increased the depth that the net hung in the 
water because we found that most of the entanglements were 
occurring in the upper part of the net and we thought that 
could be done to reduce mortality of marine mammals and not 
affect the fishing catch. Third, we instituted an experiment on 
the effectiveness of these underwater acoustic devices termed 
pingers that were referred to in the last panel. We needed to 
test the effectiveness of those because they had been found to 
be effective on Harbor Porpoise but the six species that we 
were dealing with in the Pacific were a different species and 
there was no data on whether these pingers would serve as a 
warning device for those species.
    After that experiment we found it was very effective and we 
mandated the use of pingers and we also mandated the skipper 
educational workshops that helped to train fishermen in the use 
of some of these pingers and other procedures would identify 
and make them aware of the problem and also solicit their 
recommendations in solving the problem. This plan has been 
every effective. Right now mortalities of total Cetaceans are 
down to almost a tenth of what they were prior to the plan. The 
pingers especially have been a very effective component of the 
plan.
    I think the multiple interest groups and stakeholders, the 
presence of environmental groups and the fishing industries 
themselves played a critical role in the success of the plan, 
not only in devising these strategies but then once they were 
devised in implementing the same set of strategies developed 
independently by an outside body would not have been 
implemented as effectively had they not been come up with by 
the groups themselves working together so that was a key 
element.
    We did have road blocks that we faced. The group did agree 
that data would have been much better if there was better date 
on population size, rates of take, and they wanted to see more 
of that. Fishermen struggled with the resources to buy these 
pingers and put them in place in the tight time schedule. But 
in conclusion, I think it was a very successful process. We 
continue to meet and work toward trying to achieve the zero 
mortality rate goal and the team continues to meet on that but 
it has been a very successful process.
    [Prepared statement of Mr. Calambokidis follows:]

    [GRAPHIC] [TIFF OMITTED] T6525.190
    
    [GRAPHIC] [TIFF OMITTED] T6525.191
    
    [GRAPHIC] [TIFF OMITTED] T6525.192
    
    [GRAPHIC] [TIFF OMITTED] T6525.193
    
    [GRAPHIC] [TIFF OMITTED] T6525.194
    
    [GRAPHIC] [TIFF OMITTED] T6525.198
    
    Mr. Saxton. Thank you very much. You each have quite 
different perspectives although I hear some common themes 
running through most of your testimony. Mr. White, I don't want 
to mischaracterize your testimony but you used the word 
ineffective when describing I guess I would say the process 
that we created in trying to create these teams, and Ms. Young 
on the other hand said it works and cited the fact that there 
are three take reduction plans in place.
    On the other hand, Mr. Foster, it sounded to me like you 
were saying that perhaps the teams go too far and that the 
process therefore is harmful I guess to your industry. Ms. 
Young spoke of funding shortfalls that that NMFS doesn't do its 
part of the job and Mr. Calambokidis, it sounded like you were 
talking about a very successful experience that your team had 
so you all had some different perspectives.
    I guess what I would like to ask you is a follow on to the 
question that I asked the first panel and that would be with 
regard to the role NMFS plays. Obviously, there are probably 
different perspectives on this as well but in regard to the 
process and the role that NMFS plays in it. Could you each take 
just 1 minute and characterize your feelings and your beliefs 
relative to how NMFS interacts or does not interact properly in 
and throughout the process that you have observed. Would you 
start, Mr. White?
    Mr. White. Thank you. I would like to clarify one point in 
that I was speaking only of the Northeast Large Whale Take 
Reduction Team as a specific take reduction team. And I think 
the group in itself has been very successful in what it has 
tried to accomplish. I think my frustration from that point on 
comes either financially or whatever with the enforcement of 
the implementation of a plan because I don't think anything--
there has been very little action to supporting what came out 
of the plan so we don't even know if what came out of the plan 
before is even working and we are already starting to develop a 
new plan. I think that is the frustration level that I have 
from the fixed gear fishery in the Northeast.
    Mr. Saxton. Thank you. Would you speak to NMFS' role?
    Mr. White. Would I speak for NMFS?
    Mr. Saxton. Would you give us your impression--one of the 
key--when Congress wrote the provisions that we are discussing, 
it was our intent to create a process to reduce the take of 
marine mammals, especially those that are in short supply, so 
to speak, in a way that would involve people who are concerned 
about and involved in one way or another with species. And it 
has been suggested by some that the process is not working well 
because NMFS doesn't interact with and throughout the process. 
My question is would you comment on that and give us your 
feelings?
    Mr. White. Yes, I would like to answer that with two 
answers, if I could. I think NMFS' involvement in the take 
reduction team needs to be expanded and I don't know how that 
is possible under their current funding situation. I sense a 
frustration from the agency in not being able to accommodate 
the needs that we feel are necessary to get the information to 
successfully come up with a management plan.
    I also on the other half of it am frustrated with what 
appears to be a lack of financial support to implementing the 
regulations that have come out of a plan. There was some very 
good compromises that came out of the last take reduction plan 
and implemented "in the National Marine Fisheries Service Plan" 
but the enforcement on it has been little or none. I think in 
the State of Maine we have two enforcement agents for 3,500 
miles of coast line. It just can't be done.
    Mr. Saxton. Thank you. Nina Young.
    Ms. Nina Young. I think there are two things. As you heard, 
resources is one, but it is important we engage NMFS in the 
process. The team often times come up with some level of 
consensus only to have the plan fail to be implemented 
according to the statutory time lines or changed, in some cases 
dramatically, as if no discussion even occurred. And I would 
much rather have instead of ten NMFS staff sitting around on 
the periphery and two at the table, Dr. Rosenberg there at the 
critical point when we are devising the consensus.
    Usually there are six teams or six meetings during a team 
and the first few are ones where people are setting out their 
positions. They are developing and reviewing the science. It is 
really the last two where you are coming up with that consensus 
and it is at that point that I would like somebody from the 
senior level of management of NMFS to be present to commit the 
agency to the consensus, somebody from NOAA general counsel to 
say, yes, we can turn these into regulations and somebody from 
enforcement to tell us whether or not this is going to be a 
strategy that is easily enforced.
    I think those are three components, those are the people 
that we need at the table, not a bunch of staff at lower levels 
who have to constantly go back to their seniors to brief them 
about this. An example that I will provide for you is the 
Fishery Management Council. There the regional administrator 
sits through the deliberations and plays a role. The take 
reduction teams, for those of us that participate in them, are 
just as important as the Fishery Management Council process so 
they should have the same importance in the eyes of NMFS as 
that council process and they should have that same level of 
management authority.
    Rarely does a regional administrator come to those 
meetings, maybe to provide opening remarks but none of them 
have been there when the rubber hit the road and the consensus 
was being reached. Going back to the resources, we definitely 
need National Marine Fisheries Service to ask for more money to 
implement these teams. As you will probably recall, Mr. 
Chairman, when we did this law back in 1994, we estimated that 
it was going to cost somewhere around $18 million just to 
implement Section 118 and all that NMFS gets in its Federal 
appropriations is $10 million for the entire act.
    So you can see that there is a tremendous shortfall that 
doesn't allow us to really implement some of the creative 
strategies that we come up with in these negotiations with the 
fishing community.
    Mr. Saxton. I just noted that Dr. Rosenberg was nodding his 
head yes when you described the funding shortfall. Mr. Foster.
    Mr. Foster. I am trying to remember your question but as 
far as the role of NMFS the devil is in the details and on the 
large whale team we work very hard to get as close to consensus 
as we could. The biggest issue was right whales which affects 
the Northeast and Southeast regions mostly. We were primarily 
impacted by the humpbacks in the Mid-Atlantic. The final 
regulations that the team agreed upon, when they came out as 
final rule that the team was reconvened, we were given a copy 
of the final rule. It was going to publication. The team was 
asked to comment on it but no changes were going to be made in 
it.
    So, in other words, there wasn't any reason to have that 
meeting but we were there to comment on it. The final rules 
that were implemented in the Mid-Atlantic were not what we--
they had been changed enough where it was not what we had come 
up with. Consequently, there was no real harm done to the 
fishermen but there wasn't any benefit for the whales. It did 
essentially nothing because of the lack of defining the gear in 
the way it needed to be defined. So it got to--there has got to 
be a way for NMFS to follow through and get somebody that 
understands what we are talking about with gear so that it gets 
implemented in the way that it was proposed by the committee.
    Mr. Saxton. Thank you. Ms. Sharon Young.
    Ms. Sharon Young. I won't belabor the issue of funding 
which has already been covered but I want to also reiterate a 
suggestion that Bill Foster made earlier, which is I think it 
would be helpful to have someone in particular charged with 
following the plan through from the end of the team meetings 
all the way through publication of the final rule so that there 
is someone you can go to that is accountable and can address 
some of the questions that the team will have on an ongoing 
basis.
    It also is important that the team be consulted if plans 
are changed. I think some of the controversy that has arisen 
about the large whale plan was because once the team didn't 
reach consensus NMFS developed a plan and rather than seeking 
input from the people on the team about the plan it just went 
out and we ended up in a very adversarial process. And in the 
Mid-Atlantic the plan was changed quite substantially from the 
way the team focused to a way that was much more readily 
administrable by the agency but the team didn't understand that 
a change was going to be made until the plan was published and 
it could have--a lot of misunderstanding could have been 
avoided if the team had been consulted.
    And also again I do want to reiterate that I think one of 
the other problems with this is that the agency has a 
conflicted mandate and in trying to conserve fish and trying to 
conserve marine mammals the two arms of the National Fisheries 
Service don't always talk to one another and it would be 
helpful also I think to have some of the people from the 
fishery management side at the table as well as the marine 
mammal protected resources folks,. In the offshore take 
reduction team in the Atlantic, I would say probably 25 percent 
of our time was consumed over squabbles of the swordfish 
allocation and it really distracted from our ability to focus 
on marine mammals.
    And in the case of the gillnet fishery in the Mid-Atlantic 
they are already being pretty hard hit by fishery management 
restrictions. I think it is very difficult for the agency to 
then take a take reduction plan that is proposing additional 
restrictions and impose that on the fishermen as well. I think 
sometimes it is easier to have someone litigate than to take a 
really hard-nosed approach to that kind of thing. And as 
somebody who has had to speak before the Fishery Management 
Council, they don't always talk about marine mammals.
    Fishery Management Council people on the team will say that 
we can't consider the effect of our plan on Harbor Porpoise. We 
can't. And that I think is something the agency might be able 
to help facilitate because if you have those things being 
melted better together, I don't think we would be having the 
breakdown in implementation and the squabbles over the effect 
that it is having on the fisheries.
    Mr. Saxton. Thank you very much. Mr. Calambokidis.
    Mr. Calambokidis. There were a couple of different aspects 
to NMFS' role in the Pacific Take Reduction Team. On the one 
hand we had some of the scientists at the table as advisors and 
I think by and large their role was very positive. They were 
very responsive as best they could to the requests of the take 
reduction team. They were operating within certain constraints. 
The abundance estimates and these PBR calculations of 
biological removal came through a separate process.
    These stock assessment reports were reviewed by a 
scientific review group but as best as they could, they could 
provide information on what generated those and we could 
provide input back into these SRG teams on where we thought 
estimates needed to be changed or there were problems. Now we 
had fairly good consistency in terms of the NMFS people at the 
table negotiating. Thought I see elements of some of the 
concerns that have been raised certainly occurred in the 
Pacific team.
    For example, there was uncertainty when the team met 
initially on would NMFS follow through on all these 
recommendations and what would NMFS be viewing and there would 
be questions put to the NMFS representatives that they couldn't 
always answer exactly what would happen after we developed our 
consensus, would it be implemented. In all fairness, I have to 
say there was also a positive aspect of that unknown, a 
statement that was not said by NMFS but that those of us on the 
team operated under and was a major incentive to reach 
consensus was we better find a way to come up with a good plan 
that works, otherwise, NMFS will.
    And on the one hand it provided pressure that we knew if we 
didn't do our job and reach a plan that worked there was this 
other body that would step in and take over so that had both 
a--kind of a concern but it also played a positive role in 
another way.
    Mr. Saxton. Well, thank you all very much. The gentleman 
from Maryland from the eastern shore of the Chesapeake. The 
gentleman from the eastern shore of New Jersey.
    Mr. Gilchrest. It sounds like--I am a little confused now 
about the process. I almost want to ask Dr. Rosenberg another 
question. Is there--and could I ask Dr.--I guess I can. Thank 
you. Dr. Rosenberg, you wouldn't mind--from what I will say 
John C. has said and what the other members of the panel have 
said it seems at least to some extent to some people for the 
most part that the teams have worked fairly effectively, and 
one person during the testimony said that, at least my 
interpretation of it, was that the teams need to have NMFS 
participation which I assumed each team has one or two people 
from NMFS on that team.
    Is there a very specific protocol for NMFS role on each 
team for using scientific data, how that data is analyzed and 
then a consensus for a plan and then the implementation of that 
plan? Is there a clear strategy developed for each one of those 
teams as far as NMFS is concerned?
    Mr. Saxton. Dr. Rosenberg, before you answer, would the 
gentleman suspend, take the chair for a few minutes. Thank you.
    Mr. Rosenberg. Congressman, the answer is yes. There is a 
clear set of instructions and those instructions are to the 
extent that we possibly can provide information to the team in 
response to their requests made them aware of what information 
we have available and what information we don't have available. 
Everyone in every fishery management resource management 
discussion is always frustrated by a lack of information 
because everyone would like to know the perfect answer before 
they have to make a decision and of course we always have very 
imperfect information.
    So the reason that you have a large number of staff from 
NMFS in the room but as you pointed out only one or two on the 
panel is twofold, one to provide as much information to the 
team as possible, and, second, for those people who are working 
on that problem specifically to learn what the team wants to 
know about and also learn from the information that the team 
has to provide.
    Often fishermen or conservation groups have either 
anecdotal information or hard information that is immediately 
useful to the scientists as they do their analyses but 
compiling that information is very difficult so our primary 
role is to provide them as much information as we can from both 
the policy perspective as well as the scientific perspective 
and to make sure that they realize what the limitations of that 
information are and what the strengths are and also to make 
sure that people do not inappropriately combine sources of 
information.
    If you have a strong peer review stock assessment you 
should view that as a very strong piece of information. If you 
have comments from an individual scientist that is not peer 
reviewed that is of a very different quality than a peer 
reviewed well thought through team-produced report on a stock 
assessment. Second, the team members are there to try to do 
everything they can to get the team to come to consensus. They 
are not there as decisionmakers and there is a simple reason 
for that and a number of the analysts mentioned this.
    And that is because when the team makes its recommendation 
on a plan if they make a recommendation, and several of the 
teams have not been able to come to consensus, including the 
large whale team that was referred to. When they come to 
agreement on a plan or make their recommendations they do not 
have in front of them the documents required for determinations 
of the national environmental policy act, the Marine Mammal 
Protection Act, the Endangered Species Act, the Paperwork 
Reduction Act, the Regulatory Flexibility Act, and so on, 
because none of those things can be produced until we have a 
plan to do the analysis, so we can't pre-judge, yes, this will 
be OK until we do the--we actually put together the 
documentation and analyze it compared to the respective laws.
    The team does not do that. Our staff does it afterwards so 
our people need to remind people that those things need to 
occur and that certain measures will not be--you know, may or 
may not work depending on how that analysis turns out. We try 
to give them as much information as we can and some things are 
clear the same as in the Fishery Management Council that they 
won't work or they look like they probably will work.
    But the Secretary can't make a determination unless he has 
the decision documents in front of us, otherwise, all of these 
people will sue us and say you made an inappropriate decision. 
If you sit at the table, you know, that is OK, so we try to 
make sure that they realize what those limitations are but that 
is an awkward position for a team member to be in.
    Mr. Gilchrest. Based on your explanation that you just 
gave, I think it was Nina Young that said earlier that during 
the process those in NMFS that can make a decision are too far 
from the team at the time they need that decisionmaking made, 
did I adequately--and can you see how that might be a problem, 
Dr. Rosenberg?
    Mr. Rosenberg. I can see how that might be a problem. On 
the other hand, technically, legally I cannot give a definitive 
answer that, yes, this plan is acceptable or, yes, it is 
implemented until it has been analyzed under applicable law and 
that is not possible at a team meeting so I used to be----
    Mr. Gilchrest. Can the team again reassemble after the 
analysis by the higher ups is made?
    Mr. Rosenberg. They can and they usually do. In fact, they 
are continuing to meet now but I think what people are asking 
for is someone like me or when I was a regional administrator, 
regional administrator to be at the table to say yeah, that 
looks good.
    Mr. Gilchrest. How difficult is it to have a regional 
administrator at the table periodically?
    Mr. Rosenberg. Well, they work about 90 hours a week and 
having them work 100 hours a week would be OK.
    Mr. Gilchrest. I am not asking----
    Mr. Rosenberg. That is impossible, sir. I am not being 
flippant.
    Mr. Gilchrest. I don't want people to work 100 hours a 
week. We as members only work about 10 hours a week. We have 4 
hours worth of lunch a day and we have Mercedes Benz with 
people driving--no, I am just kidding. We are all tired. I am 
just asking is it a sufficient enough priority to manage the 
time of the regional managers for them, and I don't know, I am 
just based on what I am hearing today, is it a sufficient 
priority for these teams to implement these plans so that a 
regional manager can have more involvement in the process.
    And I wanted to ask Mr. C. on the end, based on this 
discussion can you give us--it sounds like your team was pretty 
successful. Did you perceive any problem with not having enough 
input from the regional manager in the process?
    Mr. Calambokidis. Well, I think we had quite a bit of 
consistency in NMFS role and----
    Mr. Gilchrest. Dr. Rosenberg, you can pull up a chair, if 
you want, sir.
    Mr. Calambokidis. And I think perhaps because the plan was 
so clearly successful we didn't maybe face as much scrutiny or 
challenge as the plan was reviewed so we may have gotten off a 
little easier than some of the take reduction teams that were 
facing more difficult challenges and had a harder time coming 
up with a plan that was working. In our case the NMFS role 
worked OK. We had a regional administrator present at certain 
meetings but we had a great deal of consistency in who was 
there both from regional and the national office and there was 
no overruling or challenging of the role they played by higher 
ups so it worked smoothly.
    Mr. Gilchrest. So you think yours worked smoothly because 
you more easily arrived at a consensus from all the 
participating parties?
    Mr. Calambokidis. I think that is partly it and I also 
think that the consistency of the individuals that were there 
worked well. We did not have NMFS really challenge or change 
our document in any substantial way.
    Mr. Rosenberg. Mr. Chairman, if I may, I think the--I did 
not mean to be flippant about whether it is possible to have a 
regional administrator there and I do believe they work about 
half the amount of time that Congressmen do but the----
    Mr. Gilchrest. That was a good comment.
    Mr. Rosenberg. I would point out that the assistant 
regional administrator for protected resources as far as I am 
aware has been attending every one of the take reduction team 
meetings in the Northeast and I suspect almost all the teams 
have been in the Northeast and that person is a senior 
official. I don't think that there has actually been an 
overruling necessarily at a higher level in the process in any 
circumstance but it is possible to have regional administrators 
at the teams.
    That doesn't mean that there aren't disagreements between 
what one staffer might think and what the agency finally 
decides to do but an overruling of the information we have 
given to a team I don't believe has occurred. And it is 
possible----
    Mr. Gilchrest. When you say overruling you don't think 
there has been an overruling of any team when the team arrived 
at a consensus with the----
    Mr. Rosenberg. I am sorry. An inconsistency between the 
position of the people who are at the meeting versus the 
position that the agency took I don't believe has occurred of 
the three teams that I have had direct involvement with. Other 
people may have a different view of that but I have been 
directly involved as a regional administrator in three of the 
teams.
    Mr. Gilchrest. I see. Ms. Young.
    Ms. Nina Young. Thank you. There are some things there in 
what Dr. Rosenberg said where I would like to point out some 
differences based on my experience. I think that scientists are 
critical and one of the things I would like to do is commend 
the National Marine Fisheries Service scientists. There were 
scientists that were involved in the process that had they not 
been involved we probably would not have reached consensus. And 
when they were involved in the process, we were able to do 
models and analyses that allowed us to have a fairly good level 
of confidence that we were going to achieve the target of the 
PBR to reduce the incidental take.
    And it is that confidence, I think is critical--I 
understand Dr. Rosenberg's point that you can't without having 
all the analysis and all the environmental assessments and 
things that the agency must do afterward, that you probably 
will not be able to say with absolute certainty that yes, this 
is a plan that is going to go forward. But being a scientist, 
as he is, what I think we are looking for is, plus or minus 95 
percent confidence in what is going to go forward as a 
recommendation from the team is what is likely to be 
implemented.
    We have a very unfortunate situation in the Atlantic 
Offshore Cetacean Take Reduction Team where two fisheries came 
to the table and negotiated in good faith. There were a total 
of three. By the end of that negotiation one was closed and 
despite the recommendations that we had developed which 
National Marine Fisheries Service was there at the table and 
participated in, those recommendations were essentially totally 
thrown out the window. That fishery was closed. And we have one 
fishery and no take reduction plan essentially for that 
fishery. What has been implemented----
    Mr. Gilchrest. Which team was that?
    Ms. Nina Young. That was the Atlantic Offshore Cetacean 
Take Reduction Team. And now the only fishery that remains is 
the long line fishery. The Pairtrawl fishery was closed and the 
drift net fishery was closed. If NMFS' intent, from the fishery 
side, was to close these fisheries from the very beginning they 
should have just done it, but instead these people came to the 
table in good faith and negotiated only to find their fisheries 
closed later on.
    Mr. Gilchrest. So there was a----
    Ms. Nina Young. That is what we are trying to avoid.
    Mr. Gilchrest. I see. I guess we could spend 2 days here 
discussing these teams analysis. Could I ask a question with--I 
would like to get back to that one but I guess this would take 
us--the difference of opinions on the data created a 
determination by NMFS different from the teams' consensus. Dr. 
Rosenberg.
    Mr. Rosenberg. If I may, because I think that this is a 
really important illustration on the Atlantic Offshore Cetacean 
Team. Your description of what happened is quite right that we 
did end up closing the paratrol fishery and the drift gillnet 
fishery. The recommendation from the team in our analysis 
essentially would have used the entire budget we had available 
for observers as well as for implementation for that one 
fishery alone so if we wanted to do nothing for Harbor Porpoise 
and for large whale take reduction team in terms of observers, 
in terms of other effort and devoted all to implementing that 
plan, we could have gone that way.
    But we viewed that that fishery was causing so many 
problems and in 1998 in one season had 300--I think it was over 
300 takes of marine mammals that the fisheries should not be 
operating because of its high take of marine mammals and 
because to implement the take reduction plan was prohibitively 
expensive so we determined that was not in the best interest of 
good government to allow it to continue and spend all our money 
in that direction. The paratrol fishery was closed for other 
reasons as well rather early on and the team knew about that.
    There are measures in place for the other fishery but they 
are fishery management measures under the highly migratory 
species plan and this also came up in several discussions. The 
same is true in the Harbor Porpoise plan. While I think it was 
pointed out that we did not implement the take reduction plan 
and it was said until after we were sued for it almost pieces 
of that take reduction plan were implemented but they were 
implemented as the Magnuson-Steven Act provisions by the 
councils and so what we tried to do was work the council 
process and the take reduction process together so that the 
closures that were put in place were put in place coherently 
between the two bodies and therefore we didn't implement 
directly the Harbor Porpoise Take Reduction Plan. We 
implemented it through the council process we believe to the 
same effect to modifications thereafter.
    Mr. Gilchrest. Let me----
    Mr. Rosenberg. So in many cases--I am sorry, Congressman, 
in many cases the agency has had to make a choice about what is 
an efficient way to try to achieve the goal that the teams have 
given us rather--even if the team has done a good job of 
developing a plan to try to solve a problem it may not be 
feasible for the agency to implement it in that form and we try 
to find another way to do it.
    Mr. Gilchrest. So that is the Mid-Atlantic team, take 
reduction team?
    Mr. Rosenberg. The Gulf of Maine Harbor Porpoise.
    Mr. Gilchrest. Gulf of Maine.
    Mr. Rosenberg. And then the other one was the Atlantic 
Offshore Cetacean Team where we closed two of the fisheries and 
implemented other provisions under the highly migratory species 
plan.
    Mr. Gilchrest. So in other words the team came up within 
your judgment a pretty good plan but to implement that plan 
would have drawn all your resources from other activities of 
NMFS?
    Mr. Rosenberg. Other take reduction activities for a 
fishery that included less than 20 vessels.
    Mr. Gilchrest. So as a result that NMFS didn't have the 
resources, if NMFS had the resources then the take reduction 
team's plan would have been followed through with.
    Mr. Rosenberg. It could have been followed through with if 
there were not other issues related to that fishery. It is not 
clear to me that there weren't other issues particularly 
related to turtles the team did not consider and we may have 
closed that fishery anyway because of other problems with the 
drift gillnet fishery. That is the fishery that we are talking 
about. It was a very small fishery and a very high cost and we 
did not judge it as cost effective to keep it open given the 
problems with both turtles and marine mammals.
    Mr. Gilchrest. So the fishery was closed which means there 
is no fishing there.
    Mr. Rosenberg. All of those vessels have gone to long 
lining.
    Mr. Gilchrest. Oh, I see.
    Mr. Rosenberg. Which with one exception which incidentally 
of course has an issue with turtle bycatch as well but these 
are very complicated things with lots of interactions. The 
fishermen continued fishing I think with one exception but they 
no longer can use drift gillnet gear as we are not allowing 
that gear to be used.
    Mr. Gilchrest. So you said part of the plan was merged into 
the management council to implement. How does that work?
    Mr. Rosenberg. I am sorry. This is not my panel. I 
apologize.
    Mr. Gilchrest. So the management council took some of the 
recommendations of the take reduction team and merged it into 
its plan?
    Mr. Rosenberg. Yes, although it was not quite so clean as 
that. That effectively is what happened with Harbor Porpoise or 
highly migratory species. There isn't a management council but 
there are advisory panels and some of the--well, there was a 
discussion of but I don't think they implemented some of the 
large whale take reduction measures through council action. We 
raised with the council and the council considered in 
committee, you may have even been on the committee, a number of 
the measures to protect Harbor Porpoise including area 
closures.
    What we did not want to have was entirely different and 
disjunct area closures that were meeting two different purposes 
and would be totally confusing both to our enforcement agents 
as well as to fishermen so we tried to pull them together 
through the council process and I believe we did that 
successfully.
    Mr. Gilchrest. I will let Nina respond to that and then I 
will yield to Mr. Faleomavaega.
    Mr. Nina Young. Thank you, Mr. Congressman. I think 
harkening back to what Dr. Calambokidis has said, what is 
important there and one of the reasons why that team was 
successful is it did have support at high levels by the NMFS 
personnel. They implemented that plan solely through the Marine 
Mammal Protection Act which was really the intent of Congress. 
It was also intended that there be better coordination, not 
kind of a piecemeal implementation of the plans, some 
provisions under the Marine Mammal Protection Act, some under 
the council.
    On the one hand, we don't want to create an additional 
burden on the fishermen by having additional closures and such. 
As much as possible, the take reduction teams have tried to 
merge fishery management closures with marine mammal closures 
and restrictions. There needs to be better coordination of the 
fishery management council actions with the take reduction team 
actions. But I still think that we need to adhere to the intent 
of Congress and that was to implement these plans under the 
Marine Mammal Protection Act so that it can be enforced under 
that Act with all the sanctions and provisions thereof.
    I think in terms of the discussion with the Atlantic 
Offshore Cetacean Team that fishery already was being observed. 
The gillnet fishery had 100 percent observer coverage. It would 
have been beneficial to know again, at the table, when we were 
coming up with what were arguably rather complex strategies to 
reduce take in that fishery. It would have been good to know 
right there at the table that this was just going to be too 
expensive, that really what we were looking at was the 
potential, the most effective way was to close that fishery 
down.
    That was the feedback that we are lacking, even if it is a 
back of the envelop calculation of what it is going to mean to 
the agency to implement this, that is important information 
that we never received, that we need to take into consideration 
as a team. Unless we start to have that dialog--unless that 
dialog starts in the team and we get that kind of feedback in 
terms of management and implementation, we are always going to 
be in this situation where there is going to be concern, and 
all the good faith will go out the window as far as the 
implementation of the team.
    We need much more active participation at a lot of 
different levels of NMFS. Scientists really did help us a lot 
but in other cases I really feel for the fisheries that engaged 
in that negotiation only to come out the other end and have the 
fishery be closed. That wasn't the intent of the Act. Thank 
you.
    Mr. Gilchrest. Thank you. Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I heard your 
statement earlier say that you are a little confused by all 
this. Well, I am a little more confused but I shall attempt to 
raise some questions if Dr. Rosenberg will not mind if he can 
take the side chair again. I have a couple of questions for the 
National Marine Fisheries. I am sorry about that. With all the 
data and constructive criticism that our panelists have 
received this morning concerning the NMFS, would I be correct, 
Dr. Rosenberg, to say that one of the reasons why you are 
unable to do some of the things that have been alluded to 
earlier by the members of the panel is because of budget 
restrictions? Is that a fact?
    Mr. Rosenberg. Yes, sir, budget and staff restrictions, 
yes, sir.
    Mr. Faleomavaega. All right. I noticed also that the five 
teams that were established under the National Marine Mammal 
Sanctuary Act, I noticed that out of the five established only 
one is for the Pacific. Now we have a very balanced approach to 
this committee. My good friend, the Chairman, and the gentleman 
who sits right next to me are very proactive as far as the 
Atlantic Ocean is concerned. I happen to come from the Pacific. 
And is there some strong implications here that we don't have 
as many problems in the Pacific as far as protecting the marine 
mammals? Is that the reason why we don't have as many teams as 
our friends of the Atlantic?
    Mr. Rosenberg. Congressman, I think that the reason that it 
has happened that way is twofold. One is that amongst the 
urgently needed attention where stocks on the Atlantic were 
immediately interacting with fisheries and in the Pacific a 
number of the stocks that were immediately interacting with 
fisheries were being dealt with under other mechanisms. For 
example, in Alaska there was stellar sea lion work going on 
through the council as well as through a recovery team although 
someone suggested that we should--and I believe it was 
suggested here we should form a take reduction team in that 
process as well, which is already quite complicated.
    For monk seals in the Hawaiian Islands there is an 
endangered species issue but it is not a direct fishery 
interaction issue. And of course there are some other 
interactive issues that have been dealt with under other 
legislation such as tuna-dolphin, so there are a number of 
things going on in the Pacific but not so much directly through 
the take reduction team process. It is not because we are less 
interested of course in Pacific fisheries but we try to choose 
the marine mammal fishery interactions that seem ready to move 
into a take reduction process and didn't already have some 
other kind of forum where the issues were being discussed.
    Mr. Faleomavaega. We are having a royal battle going on now 
between the Department of Commerce and the Department of 
Interior as to which agency should have the lead on protecting 
our coral reefs, and I notice also the involvement of the 
Department of Agriculture. When you capture a marine mammal it 
comes under the Agriculture Department. This is a very distinct 
scenario here. We have three Federal agencies involved and I 
would like to ask Dr. Rosenberg is this going on OK between you 
and National Fisheries in trying to determine whether an animal 
goes into a certain thing and all of a sudden you just stop 
right there and AFIS has to come in and take over. Is this a 
pretty good way of running the provisions of this Act?
    Mr. Rosenberg. I understand your question, Congressman. I 
think that you are referring to animals that are held in 
captivity and then dealt with other AFIS rules such as the monk 
seals that were then transferred to Sea World in Texas. And 
they have the expertise on display animals. That has been not 
so much of a problem. The larger issue is how do we protect the 
monk seals in place. There is, as you noted, both Department of 
Interior interest as well as Department of Commerce interests 
and I am sure you can recognize that I have absolutely no 
opinion on that matter.
    However, I would point out that National Marine Fisheries 
Service, the Department of Commerce has the overall expertise 
in marine resource science and management and I believe coral 
reef. Corals are all marine but with regard to monk seals 
similarly we had been working intensively in the northwest 
Hawaiian Islands to try to develop measures for protection 
among seals and will continue to do so. The interaction in the 
reef ecosystem is a complex one and certainly needs a lot more 
work. I don't think agriculture is involved in that part, only 
in the display part.
    Mr. Faleomavaega. If I could ask the members of the panel 
and also Dr. Rosenberg, do you see any provision in the current 
law that is defective to the extent that we really need to make 
amendments? Do we need to make any major surgery on any of the 
provisions to the current law so that it becomes more 
palatable? We can work with it in a more practical way.
    Are we putting too much on the table as far as the Congress 
is concerned --and yet we have so many shortcomings on the 
ability of the Administration and the commissions or whatever 
groups there are to enforce the provisions of this Act. Are 
there any provisions here that you would recommend, Dr. 
Rosenberg, that we ought to change?
    Mr. Rosenberg. Congressman, I don't think that there are 
specific provisions we ought to change but I do believe that 
we--staff is probably going to throw something at me if I miss 
something but our biggest concern is whether we can effectively 
carry through the process with the team, take reduction teams, 
have sufficient resources, staff them sufficiently and provide 
them the information in a sufficient manner for them to do the 
work.
    I don't think that is a matter of changing the law although 
the deadlines of course are as everyone has noted are 
problematic for us and they are statutory.
    Mr. Faleomavaega. Members of the panel.
    Mr. White. Just as a followup to what Dr. Rosenberg said, I 
am wholly supportive of the process as it is conceived and I 
think it is just something we need to build on. I am not an 
expert at all on the laws and I can't see that as I understand 
them now things need to be changed other than we need to do 
what its original intent was and just build on that. I think 
the process is there and the process is an excellent one. I am 
wholly supportive of it but it is like what I understand an 
unfunded mandate is. It just needs to be carried further and 
improved on.
    Mr. Faleomavaega. Ms. Young.
    Ms. Nina Young. Thank you. We totally reviewed the Act and 
have given this a lot of thought and we would be happy to 
provide you with our recommendations for amendments to the Act. 
I could probably encapsulate that by saying for the most part 
there are technical changes, things to make the Act run more 
smoothly, oversights, that once we got involved in the 
implementation we hadn't really thought about. I think that 
Section 117 and 118 are functioning well.
    I understand that there is a problem with the deadlines. We 
would probably recommend changes there along the lines of 
including again higher level participation by NMFS personnel in 
the take reduction team process but overall I think those 
provisions are functioning as we had hoped even though they 
aren't meeting their deadlines and that potentially with more 
time we will see them reach their targets, the zero mortality 
rate goal, the Potential Biological Removal.
    My view is that the time that we spent has been more or 
less growing pains in trying to implement this rather complex 
section of the law. Overall, in other areas, I think we need 
additional research into deterrence for pinnipeds to keep them 
away from fishermen's gear and catch and we need a much more 
dedicated effort in that regard, as Dr. Reynolds said.
    We also need to start to think proactively about the health 
of marine mammal stocks. In some cases, stocks have recovered. 
In other cases, we have concerns about Hawaiian monk seals and 
even healthy stocks like California sea lions. We are seeing a 
much larger occurrence of cancers, various tumors, diseases, 
hepatitis, herpes virus in these animals than ever before and I 
think we would really welcome the Congress to look at Title IV, 
which is the Marine Mammal Health and Stranding Response Act, 
and look to ways to bolster that effort to better assess the 
health of marine mammal stocks.
    Mr. Faleomavaega. I am not a scientist, Ms. Young, but I 
would think that Dr. Rosenberg is probably aware of the fact 
that these diseases in these animals were not on their own. It 
probably had a lot to do with human pollution.
    Ms. Nina Young. That is correct.
    Mr. Faleomavaega. And our lack of providing a clean 
environment for them to live in. Please. I am sorry.
    Ms. Nina Young. That is it. Thank you very much.
    Mr. Foster. I have to admit that I was not involved in 
drafting this Act and I am not familiar with it. As fishermen, 
we should have been more active when this came along. I have 
serious concerns about the ability to reach a zero take on the 
animals and whether or not that is--it is not just feasible or 
whether it makes sense to try that and still try to produce 
food from the ocean. It winds up that everything we do every 
year is a compromise.
    Some stocks such as the right whale may go extinct the way 
it is going now no matter what we do even if we stopped all 
fishing. It looks like the way they are headed right now they 
may be gone. Other stocks are going to do quite well no matter 
how much fishing we do and to have it across the board that we 
are trying to get to zero take the Act may prescribe something 
that doesn't make a whole lot of sense to me as a person who 
produces seafood.
    Mr. Faleomavaega. Well, as I recall, the problem that we 
were having with the dolphins because our method fishing was 
not only purse seining, but in other methods of fishing that we 
were killing about a half a million dolphins a year. An 
interesting thing was that it wasn't because the Congress in 
its wisdom that decided to come out with a ban on doing the 
method of fishing that we had, it was because of the outcry of 
the American people. And it did such a tremendous effect on the 
leaders on the Hill that that is when we came about in passing 
a law to ban this method of fishing that killed half a million 
dolphins a year----because the purse seining method was 
utilized.
    But now we have changed that again and my good friend here 
from New Jersey and I have a--I'm more of a purist when it 
comes to this, because now we are killing only about 3,000 
dolphins a year as a result of this mandate. And of course I am 
a little familiar because Starkist Tuna had a little problem 
here in the way that they were advertising, how they were 
capturing the tuna. My district happens to have the largest 
tuna canning facility in the world. I am a little familiar with 
this issue.
    But as you had mentioned, sir, about the fishing industry 
if there is anything I want to do it is protect the fishing 
industry as well. But at the same time my real sense of serious 
complaint is that while we are putting our commercial fishing 
industry on this high standard that you are not to capture 
these mammals, not do this, what about the other countries in 
the world and their fishing methods. I will tell you right now 
they are not in any way near the standards that we are putting 
on our fishing industry, and I think that is a crying shame but 
that is what we are living with as far as reality is concerned, 
and I don't agree with that.
    But I do appreciate your concerns, sir, about the fishing 
industry and I will get to that in the next question. I didn't 
mean to disrupt Ms. Young. She might have a strong feeling 
about what I am saying. I am not an expert on this Act myself 
but I just wanted to know if there are obvious problems. I 
would like to suggest, and I am sure the Chairman would agree, 
if you have any specific suggestions on proposed changes or 
amendments to the current law that we ought to look at.
    We are open, and one thing I do enjoy is working with my 
good friend here, the Chairman we are very sensitive about the 
needs of the community. Ms. Young.
    Ms. Sharon Young. Thank you. I couldn't agree with some of 
your comments more. As a matter of fact, I think the Act does 
not need major surgery and I think we have a lot to be proud of 
with it. I think it serves as an example to many other 
countries. Australia and other countries have adopted similar 
protective measures because of the example we have set and I 
think there is a lot to be proud of.
    And I think some of our great concerns are because of that 
disparity and because of our trade agreements with other 
countries. We are often finding ourselves in very difficult 
positions because of the trade agreements we have made that may 
undermine our own protective agreements and a study that came 
out about a year ago by Steven Keller of Yale University 
indicated that attitudes of the American people toward marine 
mammals haven't changed at all really. They are just as 
strongly supportive as ever.
    I am perhaps a little bit complacent in thinking we have 
saved all the whales but I think their feelings are so deep 
that they are easily aroused and I think that the Act's 
existence has made a lot of people feel a lot better about how 
we are treating those animals I think most of us care so much 
about. In my testimony I mentioned some minor possibilities 
including the inclusion of recreational fisheries which may 
have similar impacts to commercial fisheries where the 
commercial fisheries are called to count and the recreational 
fisheries right next door with the same net doesn't have to do 
anything any different necessarily.
    And there may need to be some clarifying regarding language 
dealing with enforcement because there was apparently some 
concern by enforcement people about what their authority is to 
enforce the provisions. But most specifically I think--and also 
the Marine Mammal Commission suggestion about perhaps 
stakeholder process that might be able to include other 
interactors such as boats and so forth is just a clarifying 
thing but it is not major surgery.
    And most specifically the funding issues do have to be 
addressed. I think the budgets have to be dramatically 
increased so where the MMPA deals with budget line items the 
biggest change would be making those numbers go a lot higher if 
it is possible.
    Mr. Faleomavaega. Please.
    Mr. Calambokidis. I don't have specific language and I 
couldn't comment on the language. I can make some of the points 
that I see could be improved in the process and I don't know 
how they exactly translate into changes to the Act. Certainly 
some of the time lines were difficult for the groups to deal 
with. One aspect that got briefly alluded to, the zero 
mortality rate goal, is something the Pacific team is now 
dealing with and having clearer definitions of what that means 
so that that is an essential element of how the team can work 
together to know if it has come up with an adequate plan right 
now.
    It is somewhat vague and you have some latitude to take in 
other economic factors and the fishery and what is practical 
but it is important that things be as clearly defined as 
possible for the team to work toward consensus. And then the 
other thing that has been alluded to several times is I think 
aspects of funding and support for things like the assessments. 
There was a mention earlier of the use of the minimum 
population estimates in calculating these potential biological 
removals.
    And what that does, and I think it is a healthy thing, is 
it puts pressure on accurate assessments. The more accurate and 
less uncertainty in your assessment, the closer that minimum 
estimate is to the best estimate and so it does put an 
important force and need for accurate assessments. There were 
other aspects on our team, things like pinger development. 
There is little support for testing better ways.
    The pingers were developed and we found co-incidentally 
they worked fairly well with other species but few experiments 
done what might be a more optimal frequency species by species 
that would work more effectively than just right now we are 
using the same pinger used for Harbor Porpoise out in the 
Pacific to try to alert beat whales and there may be other 
frequencies that would work better.
    And then there was also mention enforcement is a key issue. 
Interestingly enough, within the Pacific Take Reduction Team 
the strongest voices for better enforcement were from the 
fishermen themselves because what they didn't want to see is 
those of them that followed the provisions of the take 
reduction team played by the rules to reduce mortality to be 
undercut by the fact other people could be getting away without 
following the provision.
    So that was something, enforcement across the board they 
wanted to see and there were very great difficulties in seeing 
how the resources could be brought to bear to provide that for 
something like an offshore fishery in the Pacific.
    Mr. Faleomavaega. Thank you very much. I really appreciate 
your comments. I just started serving as a member of this 
subcommittee last year. Why our country has to import $7 
billion worth of fish which goes to the pockets of foreign 
countries, and why our own country cannot produce domestically 
enough fish for our own consumers is beyond me.
    With all the technology and the capabilities that come with 
a $1.7 trillion budget----and we are having to buy fish from 
other countries. It is something that I hope the Chairman will 
want to pursue. One of the trends that is happening now in my 
observation, it is quite obvious that the Atlantic is over 
fished and now they are coming over to the Pacific. The nation 
of Kiribati [ph] has just accepted about 14 purse seiners from 
the Spanish fishing purse sein industry.
    They are going to be fishing for tuna at Kiribati and there 
are several other island groups that are going to be doing this 
because they are hard up in their own local economies. But what 
is happening now is that they are coming over to the Pacific to 
do a lot of fishing. And I think this issue definitely is going 
to be a global one, not just our own interest, but it is going 
to create demands on the entire planet if we don't take up 
conservation measures as we are now trying to do. Soon we could 
face the same problems that we are now faced with in the 
Atlantic region. Mr. Chairman, thank you and thank you again, 
Dr. Rosenberg, and members of the panel.
    Mr. Saxton. Thank you, Mr. Faleomavaega. There are a series 
of questions that other members have for the panel but we are 
not going to ask you to sit here for another 2 hours through 
lunch because Mr. Faleomavaega forgot to bring pizza for 
everybody so----
    Mr. Faleomavaega. Actually, Mr. Chairman, I was going to 
bring some raw fish but I didn't know if they----
    Mr. Saxton. I do want to thank everyone on the panel for 
their insight and for their expertise they have given us today. 
The hearing record will be held open for 30 days for responses 
from the witnesses and the members, and we will try to reach 
into this Act and collaborate with all of you today to make 
sure that our human response to this human-induced crisis is 
fixed for succeeding generations.
    I do want to thank all of you for your patience, Mr. 
Faleomavaega for his patience with my lengthy questions and 
then my patience with his lengthy questions and for all your 
lengthy responses. I want to thank you all very much. We do 
have other questions that we will probably get to you and 
continue to work on this issue. And I thank all of you for your 
dedication. The hearing is adjourned.
    [Whereupon, at 12:12 p.m., the subcommittee was adjourned.]
    [Prepared statement of Mr. Faleomavaega follows:]

    [GRAPHIC] [TIFF OMITTED] T6525.199
    
    [GRAPHIC] [TIFF OMITTED] T6525.200
    


      HEARING ON: SECTION 119 OF THE MARINE MAMMAL PROTECTION ACT

                              ----------                              Th
ursday, April 6, 2000


                       House of Representatives,

    Subcommittee on Fisheries Conservation,
                                Wildlife and Oceans
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met pursuant to other business at 2 p.m. 
in Room 1334, Longworth House Office Building, Hon. Don Young 
[Chairman of the Committee] presiding.

STATEMENT OF HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM 
     THE STATE OF ALASKA; CHAIRMAN, COMMITTEE ON RESOURCES

    Mr. Young. The meeting will come to order. Today's hearing 
will focus on Section 119 of the Marine Mammal Protection Act. 
Section 119 authorizes the Secretaries of Commerce and Interior 
to enter into cooperative Agreements with Alaska Native 
Organizations to conserve marine mammals and provide for the 
co-management of subsistence use of marine mammals by Alaska 
Native communities.
    The Agreements entered into by the Agencies and the Alaska 
Native Organizations can include grants to support the 
collection of population data, monitoring of harvests, and 
research activities. It is important that the users of these 
resources be active participants in the research and 
populations surveys because they have local and historical 
knowledge that can be useful to the collection of this 
information.
    The Secretary of the Interior has co-management Agreements 
with the Alaskan Sea Otter and Sea Lion Commission, the Alaskan 
Polar Bear Commission, and the Eskimo Walrus Commission. The 
Secretary of Commerce has a co-management Agreement with the 
Alaska Native Harbor Seal Commission and is currently in 
negotiations with the Alaska Beluga Whale Committee, the Cook 
Inlet Marine Mammal Council, and the Tribal Government of St. 
Paul.
    I would like to have a dialogue today on the processes used 
to develop these Agreements, the length of time it has taken to 
implement them, and the relationships between the Alaska Native 
Marine Mammal Commissions and Agencies.
    I am concerned that the annual renewal of the research 
portion of the Agreements and would like to know why the 
Agreements were developed this way and if this annual renewal 
hinders the long-term goals of the Commissions.
    I want to thank the witnesses for appearing before the 
Subcommittee, especially those who have traveled so far down to 
testify today. Especially, as I begin, I would like to thank 
those, my constituents, the distinguished Alaskans who traveled 
so far to give their valuable insights on the Marine Mammal 
Protection Act.
    [The prepared statement of Mr. Young follows:]

    [GRAPHIC] [TIFF OMITTED] T6525.001
    
    [GRAPHIC] [TIFF OMITTED] T6525.002
    
    [GRAPHIC] [TIFF OMITTED] T6525.003
    
    [GRAPHIC] [TIFF OMITTED] T6525.004
    
    [GRAPHIC] [TIFF OMITTED] T6525.005
    
    [GRAPHIC] [TIFF OMITTED] T6525.006
    
    Mr. Young. We do not have a ranking minority member here, 
but that is their problem right now. We will go ahead with the 
hearing. And the first witness I would like to call up, I 
understand that Penny Dalton is caught in traffic.
    Ms. Dalton. She is here.
    Mr. Young. Oh. She is here. All right. Good. I mean, you 
did that on show. I am surprised there wasn't a band playing 
and a little applause, Penny. But thanks for making it and I am 
sorry about the traffic. I was just about to announce you were 
caught in traffic.
    So we will start with Panel I, and Ms. Dalton will be the 
Assistant Administrator for Fisheries, National Marine 
Fisheries Service. And joining her would be David Allen, 
Regional Director of Fish and Wildlife Services. And the two of 
you--David, would you join them, please? And, Penny, if you 
want to, I will let you catch your breath. I will let David go 
first or vice versa. Is that all right?
    Ms. Dalton. Yeah.
    Mr. Young. David, would you mind going ahead and giving 
your testimony first and just let her get her breath and have a 
glass of water?
    Mr. Allen. That is fine, Mr. Chairman.

 STATEMENT OF MR. DAVID B. ALLEN, REGIONAL DIRECTOR, U.S. FISH 
                  AND WILDLIFE SERVICE, ALASKA

    Mr. Allen. Mr. Chairman, I appreciate the opportunity today 
to testify. I am David Allen, Regional Director for the Fish 
and Wildlife Service in Alaska. My testimony is on the 
Service's implementation of the Marine Mammal Protection Act 
and in particular, on Section 119, Cooperative Agreements with 
Alaska Native Organizations for the conservation of polar 
bears, sea otters, and Pacific walrus.
    In addition, I will be recommending that the Act's 
authority be expanded to allow Alaska Native Organizations, in 
cooperation with the Service, to manage subsistence use of 
marine mammals prior to individual stocks becoming depleted.
    Mr. Chairman, the Section 119 Amendment, in 1994, has been 
a positive addition to the MMPA. Marine mammals are of vital 
importance to Alaska Natives for both cultural and subsistence 
purposes and are visible indicators of change in the marine 
environment. Alaska Natives, as subsistence users, are often 
first to note changes in marine mammals that are important to 
assessing conditions in the marine environment.
    Section 119 recognizes these connections and allows their 
potential benefits to be realized. We currently have three 
Section 119 cooperative Agreements in place with the Alaska Sea 
Otter and Steller Sea Lion Commission, the Alaska Nanuuq 
Commission, and the Eskimo Walrus Commission. These Agreements 
have been in place since 1997 and provide a contractual 
framework for accomplishing specific activities for the 
conservation of marine mammals.
    A basic benefit of these Agreements has been improved 
communication between the Commissions and the Service and among 
the Commission members who represent the Alaska Native hunters 
and their respective villages.
    To illustrate the value of Section 119, I will share with 
you three examples of the success we have had in working with 
our Alaska Native partners. My first example is the Cooperative 
Biological Sampling Program and mortality surveys of sea otters 
around a fish-processing facility in Cordova. This cooperative 
effort with the Alaska Sea Otter and Steller Sea Lion 
Commission is leading to a change in the facility's discharge 
practices and permits from the EPA to protect sea otters that 
have been dying from parasite infections caused by eating waste 
from processed fish.
    In another example, the Alaska Nanuuq Commission has been a 
full partner with us in developing a draft Agreement between 
the United States and the Russian Federation on the 
conservation and management of the Alaska-Chukotka Polar Bear 
population. In addition, we have assisted the Nanuuq Commission 
in a study to compile traditional ecological knowledge of polar 
bears in the Chukotka region of Russia.
    My third example of successful partnership is our work with 
the Eskimo Walrus Commission. A recent product of our 
partnership with this Commission is the collection of walrus 
harvest information in Russia. The collaboration began with a 
bilateral workshop on harvest monitoring followed by training 
of Russian harvest monitors in the Village of Gambell on St. 
Lawrence Island. And, as you know, that is in the Bering Sea 
just about 60 miles from Russia. The newly trained Russian 
native monitors collected harvest data in Chukotka that 
provided vital important information on the Pacific walrus 
population.
    Mr. Chairman, although we have made significant progress in 
working with our Alaska Native partners on marine mammal 
conservation matters, we could do much more if we had expanded 
authority for co-management Agreements. Currently the MMPA does 
not include enforceable provisions for management of 
subsistence harvests of marine mammal stocks before they become 
depleted.
    Under existing Section 119 and cooperative Agreements, we 
can work with our Native partners to develop management 
strategies implemented through local authorities, such as 
tribal ordinances. However, this arrangement is strictly 
voluntary on a village-by-village basis with further 
limitations related to the scope of jurisdiction and 
enforcement authority.
    Our goal is to expand Section 119 to include enforceable 
management provisions governing the Native subsistence harvest 
of marine mammal stocks prior to depletion through co-
management Agreements. We are working with our Alaska Native 
partners and the National Marine Fisheries Service to develop 
such a proposal. When we reach consensus on the provisions of a 
co-management proposal, we will advise the Subcommittee.
    Mr. Chairman, in closing, I want to emphasize the Service's 
commitment to working with Alaska Native partners in the 
conservation and management of marine mammals. Ultimately, we 
believe it will be more effective to conduct our marine mammal 
conservation responsibilities through enhanced co-management 
Agreements with Alaska Native subsistence users and the 
appropriate federal partner. Such Agreements can be structured 
to ensure our Alaska Native partners have the first opportunity 
to address specific management issues and concerns.
    We do envision, however, that the federal government will 
retain ultimate authority for enforcement of the MMPA, 
international treaty obligations, stock assessments, and permit 
programs.
    Mr. Chairman, that concludes my remarks and I will be happy 
to answer any questions. Thank you.
    [Prepared statement of Mr. David B. Allen follows:]

    [GRAPHIC] [TIFF OMITTED] T6525.007
    
    [GRAPHIC] [TIFF OMITTED] T6525.008
    
    [GRAPHIC] [TIFF OMITTED] T6525.009
    
    [GRAPHIC] [TIFF OMITTED] T6525.010
    
    [GRAPHIC] [TIFF OMITTED] T6525.011
    
    Mr. Young. Thank you, David. That was excellent testimony 
and it was right on time. That usually doesn't happen.
    Mr. Allen. Thank you.
    Mr. Young. Penny, you are up.

   STATEMENT OF PENELOPE DALTON, ASSISTANT ADMINISTRATOR FOR 
FISHERIES, NATIONAL MARINE FISHERIES SERVICE, NATIONAL OCEANIC 
  AND ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Ms. Dalton. Okay. Between the tour buses and the roadwork, 
getting from Silver Spring down here is quite an adventure. 
Good morning, or good afternoon, Mr. Chairman. I am Penny 
Dalton, Assistant Administrator for NOAA Fisheries. Thank you 
for inviting me to testify today on development--
    Mr. Young. Penny, is that mike on?
    Ms. Dalton. Yeah.
    Mr. Young. Okay. Bring it a little closer.
    Ms. Dalton. Testify today on development of co-management 
Agreements with Alaska Natives under the Marine Mammal 
Protection Act. Section 119 of the MMPA authorizes the 
Secretaries of Commerce and Interior to enter into cooperative 
Agreements with Alaska Native Organizations for the co-
management of marine mammals subsistence harvests.
    In 1997, NOAA Fisheries, the U.S. Fish and Wildlife 
Service, the U.S. Geological Survey, and the Indigenous 
People's Council for Marine Mammals signed an umbrella 
Agreement. The umbrella Agreement establishes guiding 
principles for the negotiation of subsequent Agreements. It 
calls for stocks to be maintained at levels that support 
subsistence harvests and equal participation by Alaska Natives 
and harvest decisions. Other elements include collection 
analysis of population data, adequate enforcement, education 
activities, and management plans.
    Co-management Agreements have been developed under Section 
119 for beluga whales, harbor seals, Steller sea lions and 
northern fur seals. Prior to enactment of Section 119, an 
Agreement was signed with the Alaska Eskimo Whaling Commission 
for co-management of bowhead whales.
    With respect to beluga whales, NOAA Fisheries entered into 
an Agreement in December 1999 with the Alaska Beluga Whale 
Committee to manage the western Alaska populations. The 
Agreement covers beluga whales in the Beaufort, Chukchi, and 
Bering Seas and promotes scientific research on the species.
    A separate Agreement to co-manage this year's harvest of 
Cook Inlet beluga whales recently was negotiated with the Cook 
Inlet Marine Mammal Council and is now in the NOAA clearance 
process. Authorized legislatively, the Agreement specifically 
provides for the allocation of one whale to the Native Village 
of Tyonek. It is subject to the National Environmental Policy 
Act and we currently are developing an environmental impact 
statement. A new Agreement will be negotiated for harvest in 
2001 and beyond based on the outcome of the proposed depletion 
determination and the agency response to a petition to list 
Cook Inlet belugas as endangered.
    In April 1999, NOAA Fisheries entered into an Agreement 
with the Alaska Native Harbor Seal Commission for harbor seal 
conservation and management throughout Alaska. Under the 
Agreement, a committee comprised of commission officers and the 
NOAA Fisheries staff will develop action plans for harbor 
seals. The plans will identify activities to be undertaken by 
the parties for population monitoring, harvest management, 
education, and research.
    On Steller sea lions and northern fur seals, we currently 
have a draft Agreement with the Tribal Government of St. Paul 
in the NOAA clearance process. This Agreement provides for co-
management of subsistence harvests on St. Paul Island and 
establishes a committee similar to those under other 
Agreements. It calls for cooperation and monitoring, research, 
disentanglement programs, maintenance of fur seal rookeries, 
and education programs.
    One significant issue in developing co-management 
Agreements is which Alaska Native group should participate. 
Section 119 and the accompanying House report suggest that any 
Native organization or tribal government that represents 
subsistence users can be party to an Agreement. However, 
Administration policy directs that agency actions be 
implemented in a manner that is respectful of tribal 
sovereignty and allows for input by tribal officials. 
Consequently, NOAA Fisheries has tried to enter into Section 
119 Agreements with tribal governments or organizations that 
have tribal authorization.
    This preference also stems from the need to develop 
enforcement mechanisms for Agreements. All the co-management 
Agreements developed so far address enforcement. However, the 
MMPA currently does not provide authority for federal process 
to support enforcement and adjudication of violations by Native 
organizations.
    Nor, does NOAA Fisheries have authority to regulate Native 
marine mammal harvests prior to a depletion finding unless the 
take is wasteful. Thus, the preferred enforcement mechanism is 
for tribal government or council to adopt ordinances that 
reflect the provisions of the Agreement or management plan and 
then adjudicate violations through whatever traditional 
conflict resolution process is applicable. However, it may be 
cumbersome for statewide commissions representing many villages 
to attempt to gain passage of such ordinances from all member 
tribes. In addition, these ordinances would not be applicable 
to hunters unaffiliated with the member tribes.
    Another concern is the applicability of the Federal 
Advisory Committee Act to committees established through co-
management Agreements. The Unfunded Mandates Act granted FACA 
exemptions to meetings with elected tribal government officials 
or their designated employees.
    We interpret this to provide a FACA exemption to officers 
of Native marine mammal commissions authorized by tribal 
resolution. However, this exemption probably could not be 
applied to organizations that are not tribally authorized.
    NOAA Fisheries has been involved in discussions regarding 
such issues with the Indigenous People's Council for Marine 
Mammals and the Fish and Wildlife Service. Discussion 
participants agree that strengthening enforcement provisions in 
Section 119 Agreements, or within their associated management 
plans, would greatly improve conservation. We also agree that 
it is worthwhile to explore options for regulating marine 
mammals subsistence harvest by Alaska Natives prior to 
depletion, but only through mutually agreeable arrangements. We 
currently are working together on the details of how such an 
authority could work.
    I welcome the opportunity to discuss the resolution of 
these and other important marine mammal conservation issues. 
Thank you.
    [Prepared statement of Ms. Penelope Dalton follows:]

    [GRAPHIC] [TIFF OMITTED] T6525.012
    
    [GRAPHIC] [TIFF OMITTED] T6525.013
    
    [GRAPHIC] [TIFF OMITTED] T6525.014
    
    [GRAPHIC] [TIFF OMITTED] T6525.015
    
    [GRAPHIC] [TIFF OMITTED] T6525.016
    
    [GRAPHIC] [TIFF OMITTED] T6525.017
    
    [GRAPHIC] [TIFF OMITTED] T6525.018
    
    Mr. Young. Thank you. I am going to make this relatively 
short because I want to get to my Alaskan witnesses. But, Dave, 
why are the research portions of the cooperative Agreements 
renewed annually? Is it based on annual appropriations? Why is 
it just one year?
    Mr. Allen. That is the convention that we have always used 
for these types of Agreements. And clearly the intent is to 
continue it beyond one year, but we do renew them on annual 
basis.
    Mr. Young. But wouldn't it be better to make it a two-year 
or three-year deal, or would you still prefer to leave them one 
year?
    Mr. Allen. I personally wouldn't have any objection in 
doing that. As I understand, but I can certainly check this, I 
think it is a contracting convention that governs this. It is 
not something that we do by choice.
    Mr. Young. Now, we passed this Act in 1994, I believe. And 
you have an Agreement with three Commissions now.
    Mr. Allen. Yes.
    Mr. Young. And you reached those Agreements when?
    Mr. Allen. We received our first appropriation to fund 
Section 119 Agreements in Fiscal Year '96--I am sorry, '97, in 
the fall of '96.
    Mr. Young. So they reached Agreement in '95, one year prior 
to the Appropriation.
    Mr. Allen. We concluded an Agreement within a few months 
after we received the first appropriations--
    Mr. Young. Which three--
    Mr. Allen. --in early--
    Mr. Young. Which three do you have an Agreement with?
    Mr. Allen. We have an Agreement with the Alaska Nanuuq 
Commission, who deal with polar bears; the Eskimo Walrus 
Commission, and the Alaska Sea Otter and Steller Sea Lion 
Commission. All three of those commissions.
    Mr. Young. Okay. And you had some suggestions on how to 
improve this. And what were those two suggestions?
    Mr. Allen. The principal suggestion is that we expand the 
authorities within Section 119 to allow for harvest management 
for subsistence purposes prior to depletion. As you know, 
presently, under the Section 101(b), Native Exemption, there is 
no management regime and there is no federal authority to 
actually conduct any kind of a management program until 
depletion occurs. And, of course, the concern everyone has is 
that that is not when we want to begin management as partners. 
That is what we want to prevent.
    Mr. Young. What you are suggesting now is the only time 
they become involved is after the depletion occurs. It would be 
better to have them involved prior to the depletion. Is that 
what you are saying?
    Mr. Allen. Yes. And the only time we get involved, that is 
the federal government, in terms of any kind of management 
regime that has any enforceable provisions, is only when 
depletion occurs. So the basic recommendation is to create 
authorities through co-management Agreements that would allow 
for management programs working with the Alaska Native 
Commissions so that we could maintain a harvestable surplus for 
subsistence purposes prior to depletion.
    Mr. Young. David, are you stationed in Alaska or are you 
stationed down here?
    Mr. Allen. I am stationed in Alaska.
    Mr. Young. Okay. Penny, how many Agreements do you have?
    Ms. Dalton. We have five now. One of them was--or at least 
two in the clearance process, two completed, and one that was 
actually done. The Alaska Eskimo Whaling Commission was done 
before Section 119 was enacted.
    Mr. Young. How many--okay--you say five. You have 
jurisdiction over five. Right?
    Ms. Dalton. Yes. We have five either in place or in the 
works.
    Mr. Young. Okay. How many are in the works?
    Ms. Dalton. The one--there are two in the works. For Cook 
Inlet Marine Mammal Council and also for the Tribal Government 
of St. Paul for sea lions and northern fur seals.
    Mr. Young. And what is holding that up?
    Ms. Dalton. I think we just recently created--completed the 
Agreements and they are still just moving through our clearance 
process.
    Mr. Young. And how soon do you expect that to be finalized?
    Ms. Dalton. And so it sounds like within the next few 
weeks. We will get you a definite date for the record.
    Mr. Young. Okay. Now, the thing I am curious--and I was 
here when we did this--why did we split it up between National 
Marine Fisheries Service and Fish and Wildlife?
    Ms. Dalton. You mean--I think it is--
    Mr. Young. Why do you have beluga whales and bowhead whales 
and whatever else it is--
    Ms. Dalton. We have the--primarily more ocean-going--the 
species that spend more of their time in the ocean and Fish and 
Wildlife Service has the species that spend a significant 
portion of their time on land is my understanding of the 
division.
    Mr. Young. But they are all marine mammals.
    Ms. Dalton. Yes.
    Mr. Young. Okay. And I don't want to ask either one you 
this, but I am going to. Turf-wise, wouldn't it be better to 
have all of them under one program?
    Mr. Allen. I would love--
    Ms. Dalton. While I won't pretend that there is Agreement 
between the two departments on every marine issue, I don't 
think, at least in the time that I have been here, that there 
has been a big problem on marine mammals with the 
jurisdictional split because it is pretty clear who has which 
species.
    Mr. Young. Okay. I will leave that go for a while because 
we are in the midst of some other witnesses. But, see, I have--
and this is very important to me because I happen to agree with 
what David says, and I hope you agree the same way. I think 
there ought to be the management probably prior to the 
depletion occurrence--
    Ms. Dalton. Yes.
    Mr. Young. --and try to stop that if necessary. I do think, 
though, that even though it is a cooperative Agreement, in the 
form of an enforcement, I think if they had a better role in 
enforcement, it might work. Believe it or not, it does work 
under the Whaling Commission.
    I do think that more responsibility that is placed upon the 
groups, the better management you have of the species 
themselves, especially if I am able to give them a little 
better say. Because a lot of times, decisions are made in your 
agency and even Fish and Wildlife Agency and even above your 
pay grade that do it on a basis of pressure and emotionalism 
instead of reality.
    And I have been one that always said most of laws we have 
passed here have been misused because there has been little 
science or really information applied to the law. We have 
interest groups on both sides, be it commercial fisherman, or 
be it the environmental group, and there is no way that the 
information could really be based upon sound facts of science.
    I think that the commissions themselves--I know the Whaling 
Commission did this--they actually got science to recount the 
whales. And the first time there was only 2,500 bowhead whales 
left, and through their science they established the fact there 
was over 6,000 and I think there are around 10,000 whales now.
    Science is very important in this and the front edge is 
very important. Prior to--it is always somebody saying, all 
right, to establish sea lions they are all dead because of, and 
no science to back it up. So you have heard me on this before 
about what areas to study.
    So I just--I hope what I am hearing is correct, that you 
are working hard to make these Agreements work. That I hope 
maybe, David, that you will look beyond the Fish and Wildlife 
as far as other parts of your agency. And there may be better 
ideas about how managing other game than marine mammals. Bad 
thing for me to say, but keep that in mind.
    Mr. Allen. With your guidance, Mr. Chairman.
    Mr. Young. Yeah. Yeah. If we can get more interest on--and 
someone has something to lose or gain by it, there is--better 
management occurs. So I don't have any other questions. The 
gentleman from the great State of Maryland, outstanding 
Chesapeake protector, provider of great wisdom, would you like 
to ask any questions?
    Mr. Gilchrest. I am fine.
    Mr. Young. I thank both of you. And I will be communicating 
with both of you as far as my interests in this. This is 
important to me and I want it to work. And maybe we can expand 
upon it. And just remember, those that are on the ground 
sometimes have a little better knowledge of what is really 
occurring out there instead of someone reading something in the 
Smithsonian Magazine or from the National Geographic or from a 
newspaper in San Francisco.
    So thank you very much. I appreciate it. And I am sorry you 
were so late, Penny, as far as the traffic. And for your 
information, we will be submitting some written questions to 
you so you can have the opportunity to respond to those as far 
as the agencies.
    The next panel, Caleb Pungowiyi, Chairman of the IPCoMM 
Reauthorization Committee; Charlie Johnson, Alaska Polar Bear 
Commission; Monica Riedel, Alaska Native Harbor Seal 
Commission, Alvin Osterback, Aleut Marine Mammal Commission, 
son of the great Osterback representative that I served with; 
Lianna Jack, Alaska Sea Otter and Steller Sea Lion Commission. 
Thanks for coming to the table and appreciate all your long 
travels and appreciate your being here today. And we will go--
Caleb, you will go first, please.

       STATEMENT OF MR. CALEB PUNGOWIYI, CHAIRMAN, MMPA 
  REAUTHORIZATION COMMITTEE, INDIGENOUS PEOPLE'S COUNCIL FOR 
                MARINE ANIMALS, KOTZEBUE, ALASKA

    Mr. Pungowiyi. Thank you, Mr. Chairman. My name is Caleb 
Pungowiyi or Loman [ph] is my Native name and I am from--
originally from a Village of Savoonga. I am presently the 
president of Robert Aqqaluk Newlin, Sr. Memorial Trust in 
Kotzebue. I want to thank the Chairman for the invitation to 
testify before this Committee and I appreciate the opportunity 
to do so.
    I am testifying today as the Chairman of the 
Reauthorization Committee of the Indigenous People's Council 
for Marine Mammals and also as a former Executive Director of 
the Eskimo Walrus Commission. Mr. Chairman, back in 1994, I 
testified before this Committee urging the Congress to amend 
the Marine Mammal Act to add Section 119 to involve the Alaska 
Native many commissions to enter into co-management Agreements 
with federal agencies.
    And I want to state today that those of us who have entered 
into co-management Agreements that those Agreements, in terms 
of conservation of marine mammals and also learning more 
science about the status of marine mammals has been very 
successful. And I think as you will hear from the rest of the--
our panel this afternoon that this message is something that 
the can be echoed with all the commissions that have entered 
into co-management Agreements.
    Also the fact that in 1994 we had testified that there was 
a large communication gap between the agencies and the Native 
community. But today I think you have heard that there is 
improved communications. There is cooperation and more efforts 
to work together in terms of conserving and protecting the 
species that exist in Alaska.
    IPCoMM is a consortium of 15 Alaska Native Commissions, 
tribes and organizations working to conserve and protect the 
marine mammals and Alaska Native users of those marine mammals 
for subsistence and making of handicraft and clothing. Together 
these organizations cover most marine mammals populations found 
in Alaska and represent those Native villages most dependent 
upon marine mammals for their nutrition and culture.
    In closing in 1994, as I mentioned earlier, the Section 119 
has resulted in a number of effective partnerships between Fish 
and Wildlife Service, National Marine Fisheries Service, and 
Alaska Native Organizations. This is not to say that the 
implementations came easily. I think that, as you will hear 
from the commissions, that there were lengthy negotiations, 
times when it seemed like there would never be an Agreement 
reached between the agencies.
    But you also want to applaud that--the efforts that were 
made by U.S. Fish and Wildlife Service, especially Dave Allen, 
as the Regional Director, that the implementations probably 
came a lot easier and quicker than if it had been another 
director in his place.
    We also negotiated an umbrella Agreement, as mentioned by 
Penny Dalton. And this umbrella Agreement was to establish 
guidelines so that when different commissions negotiated the 
Agreements with federal agencies that there was a standard set 
it place so that these Agreements have some continuity and some 
equality in terms of managing the species that are used for 
subsistence.
    As Dave mentioned, in 1997, the Walrus Commission, the 
Polar Bear Commission, and the Sea Otter Commission signed 
Agreements with Fish and Wildlife Service to co-manage those 
species that are under the management of Fish and Wildlife 
Service. The funding for that came through an appropriation 
that was earmarked as an add-on to the Fish and Wildlife 
Service budget to enter into co-management with these here 
entities to a tune of $250,000.
    When we agreeing between ourselves divided to--agreed to 
divide this money between the three entities--$70,000 for the 
Sea Otter Commission, $80,000 to the Walrus Commission, and 
$90,000 to the Polar Bear Commission. Mr. Chairman, I must 
state that this amount of money barely covers the intended 
activity that we agreed to when we signed these Agreements with 
the U.S. Fish and Wildlife Service.
    The travel alone for our commissions to meet exceeds 
$25,000 to $30,000 because of the large area that we cover 
under the jurisdictions or where the species habit--oh, I can't 
think of what to say. But the coastline, for example, for the 
Walrus Commission, is three times the coastline of California. 
It goes from Bristol Bay all the way up to Barrow. And we 
cover--there are about 35 communities that either directly or 
indirectly depend upon walrus for their utilization.
    And so that is one of the shortcomings that we have seen in 
implementing these co-managed Agreements that there isn't 
enough adequate funding to cover the activities that are needed 
to fully implement the intention of the Congress in enacting 
Section 119.
    In negotiations with NMFS or the National Marine Fisheries 
Service, did not begin until--in earnest in 1998. And while 
perhaps the best model for a cooperative Agreement is the 
Alaska Eskimo Whaling Commission, Mr. Chairman, the agency has 
been slow in implementing the Section 119 Agreement.
    The first one was not signed until April of 1999 and there 
are still negotiations going on with other commissions. We 
believe this action, or lack of action, is on part of National 
Marine Fisheries Service because co-management Agreement, 
obviously, is not a priority within the agency. And it is 
reflected by the fact that the President's budget has never, 
and I repeat, never, contained a provision or a request for 
Section 119 funding.
    In closing, I want to highlight some of the activities that 
the Walrus Commission has done since I am past Executive 
Director for the Walrus Commission. We began as a Commission in 
1978 and this was in due to the fact that we felt strong 
concern when the State of Alaska had management of walrus, but 
there was some conservation issues that needed to be addressed 
and the fact that State of Alaska refused to recognize some of 
the communities that were legally recognized to hunt walrus.
    And the Village of Togiak, as you remember, sued the State 
of Alaska and won, but the Native was exemplified by the 
Congress allowed for the taking of walrus for subsistence and 
anigraft purposes. Since then we--
    Mr. Young. How much more time do you have? Go right ahead. 
I have to excuse myself and make one phone call and I will be 
right back, but he will take the chair. So--
    Mr. Pungowiyi. Okay. As Dave mentioned earlier, we have a 
number of scope awards that we have identified with the Walrus 
Commission to work with in the conservation of walrus. One of 
them is the discussion of pilot bilateral Agreement with Russia 
on the shared population of walrus being in two countries. In 
1995 there was a meeting in Chukotka where a protocol was 
signed to start negotiating an international treaty on the 
conservation of walrus in the two countries.
    We have asked that there be no formal negotiations with 
Russia until we have seen the implementation of the Polar Bear 
Agreement between Russia. But we feel that the success or 
problems that may be associated with the Polar Bear Agreement 
will reflect on how we negotiate the new Agreement that will 
deal with walrus population.
    But we will--that has not kept us from talking with the 
Russians. We have started our dialogue in developing our 
Native-to-Native Agreements on the management of walrus between 
the two areas. We have started monitoring--harvest monitoring 
programs in both counties. The Walrus Commission and the Fish 
and Wildlife Service has increased funding to implement the 
tabulated the harvest--Native harvest has occurred on both 
sides of the border so that we have a better idea to the number 
of walrus that are being harvested in both countries.
    The Walrus Commission also has a biological sampling 
program where we collect--we ask the hunters to collect 
biological samples so that we have a better understanding of 
the population indices on the walrus. We collected teeth, the 
reproductive tracts, and also other organs to also look at the 
contaminants and pollution that may be building up in the 
tissues of the polar--walrus.
    And these samples are provided by the hunters. We do, at 
the end of the season, have a drawing so that those who have 
given the samples will be like a lottery where they will 
either--we give one rifle, a barrel of gas, and $50 shopping at 
the nearest shopping center which usually means a native store. 
So it is not a whole lot of money, but it is something that 
entices the hunters to participate in this sampling program 
which is very, very important. And it indicates the age and the 
sex and the number of animals that are being taken and also the 
health status of the walrus population.
    And, Mr. Chairman, I do want to say that our--there are 
some things I would like to speak and recommendations to may 
perhaps make some changes to the Section 119. And that is that 
I--as I mentioned earlier, the co-management Agreements have 
been stymied by a lack of adequate funding. And we would urge 
the Congress to fully fund the intended appropriations for 
implementing the co-management Agreement.
    Secondly, we would like to strengthen to authorize the 
parties to Section 119 to enforce conservation and regulatory 
measures agreed upon and incorporated into Section 119. We 
agreed that it is important to have regulations prior to 
depletion and that is something that can be worked in under 
Section 119 of the Act. And that the federal agencies should be 
empowered as negotiated by the parties through co-management 
Agreements to provide a backup role if the parties agree to 
such a role.
    We also believe that Secretaries should try to maximize to 
the extent possible to work with affected Alaska Native 
Organizations and tribes in implementing regulations that are 
adopted after the listing of marine mammals under MMPA or ESA.
    We also would ask that the definition of Alaska Native 
Organizations be amended to require organizations entering into 
co-management Agreements be either tribal governments or 
tribally authorized by the government.
    Mr. Chairman, I want to thank you for the opportunity and 
we have other written testimony that will be given by myself as 
well as others. Thank you very much.
    [Prepared statement of Mr. Caleb Pungowiyi follows:]

    [GRAPHIC] [TIFF OMITTED] T6525.019
    
    [GRAPHIC] [TIFF OMITTED] T6525.020
    
    [GRAPHIC] [TIFF OMITTED] T6525.021
    
    [GRAPHIC] [TIFF OMITTED] T6525.022
    
    [GRAPHIC] [TIFF OMITTED] T6525.023
    
    [GRAPHIC] [TIFF OMITTED] T6525.024
    
    [GRAPHIC] [TIFF OMITTED] T6525.025
    
    [GRAPHIC] [TIFF OMITTED] T6525.026
    
    [GRAPHIC] [TIFF OMITTED] T6525.027
    
    [GRAPHIC] [TIFF OMITTED] T6525.028
    
    [GRAPHIC] [TIFF OMITTED] T6525.029
    
    [GRAPHIC] [TIFF OMITTED] T6525.030
    
    [GRAPHIC] [TIFF OMITTED] T6525.031
    
    Mr. Young. Thank you very much. We have a vote in about 15 
minutes and we will expedite as far as possible and I will try 
to get back, but just keep that in mind. Charlie?

 STATEMENT OF MR. CHARLES JOHNSON, ALASKA NANUUQ COMMISSION ON 
                       MMPA CO-MANAGEMENT

    Mr. Johnson. Thank you, Mr. Chairman. My name is Tomungnuaq 
or Charlie Johnson, if you don't speak Inupiat. I am the 
Executive Director of the Alaska Nanuuq Commission and a member 
of the National Marine Fisheries Scientific Review Group.
    The Alaska Nanuuq Commission is now in its third year of 
co-management of polar bear with the U.S. Fish and Wildlife 
Service under Section 119. The Commission was organized by the 
tribal governments of north and northwest Alaska to represent 
the villages on matters concerning the conservation and 
sustainable subsistence use of polar bear.
    Our contract calls for the commission to represent the 
villages and to assist the Service in developing a bilateral 
treaty with Russia on the conservation of the shared polar bear 
population in Alaska and Chukotka. Our contract also helps--
also calls for the development of a Native-to-Native Agreement 
to implement that treaty.
    The Alaska Nanuuq Commission also has a contract with the 
National Park Service Beringia Program to collect information 
on polar bear habitat use in Chukotka gathered from the 
traditional knowledge of hunters in the villages--coastal 
villages of Chukotka. Additionally, the Commission has a small 
contract with the National Marine Fisheries Service to collect 
harvest data on ice seals from the villages of northwest 
Alaska.
    We believe that there are some changes needed to be made to 
MMPA. Polar bear hunting has been banned in the former Soviet 
Union since 1956. In 1989, the polar bear population that 
Russia shares with Alaska in the Bering and Chukchi Seas was 
reclassified by the former Soviet Union as recovered and 
notified the U.S. that it wanted to share in the harvest of 
polar bears with Alaska Natives.
    A bilateral Agreement between the U.S. and Russia on the 
conservation and management, which includes the implementation 
of the Agreement by a parallel Native-to-Native Agreement, has 
been developed.
    In order for the Native-to-Native Agreement to be 
successful, change to MMPA Section 119 are needed. These are 
management before depletion. If Russia is to share in the 
harvest, it means numbers and numbers means quotas and quotas 
means management before depletion. But management before 
depletion ordered any time must be accomplished only through 
co-management with Alaska Natives.
    Secondly, enforceable tribal ordinances. The Commission 
derives its authority from the tribal governments which also 
must accept the quotas and has authority to enforce the quotas. 
Federal regulations to enforce these ordinances must also be 
developed. Thirdly, additional funding. The fully authorized 
funding for Section 119 has never been requested by the 
Secretaries of Interior and Commerce. In fact, the day before 
yesterday, National Marine Fisheries flatly told us that 
Section 119 is not a priority for National Marine Fisheries.
    If co-management is to become more successful, full funding 
and additional funding is needed. In my written testimony I 
have indicated how these funds would be used by the Alaska 
Nanuuq Commission. The success of the Agreement with Russia and 
our Native-to-Native Agreement, as mentioned by Caleb, is 
critical in that it will set the standard for future Agreements 
of shared species between Alaska and Russia.
    Additional help that we can get from Congress in--that is 
related but not necessarily part of the MMPA is that Congress 
can assist by working with the elected Deputies to the Duma, 
particularly from Chukotka and we recommend that you help 
educate them about Alaska and how co-management works.
    Another issue is research. Research from--of the U.S. Fish 
and Wildlife is now split off into the U.S.G.S., which has no 
co-management mandate. Alaska is--we need--the commissions 
needs involvement in the setting of resource priorities and the 
current situation makes it difficult.
    My last recommendation is that with the lack of interest in 
the Department of Commerce for co-management with Alaska 
Natives on marine mammals, consideration should be given by 
Congress to transferring management authority of those species 
that are used for subsistence to the U.S. Fish and Wildlife. 
Thank you, Mr. Chairman.
    [Prepared statement of Mr. Charles Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T6525.032
    
    [GRAPHIC] [TIFF OMITTED] T6525.033
    
    [GRAPHIC] [TIFF OMITTED] T6525.034
    
    [GRAPHIC] [TIFF OMITTED] T6525.035
    
    [GRAPHIC] [TIFF OMITTED] T6525.036
    
    [GRAPHIC] [TIFF OMITTED] T6525.037
    
    [GRAPHIC] [TIFF OMITTED] T6525.038
    
    Mr. Young. Thank you, Charlie, and I appreciate that 
Monica.

  STATEMENT OF MS. MONICA RIEDEL, EXECUTIVE DIRECTOR AND CEO, 
              ALASKA NATIVE HARBOR SEAL COMMISSION

    Ms. Riedel. Thank you, Mr. Chairman. My name is Monica 
Riedel or Nalatoa [ph]. I am the Executive Director of the 
Alaska Native Harbor Seal Commission located in Cordova, 
Alaska.
    The Harbor Seal Commission was organized by tribal 
resolutions in 1995 to develop and implement an MMPA Section 
119 Agreement with the National Marine Fisheries Service for 
harbor seals. We finalized and signed an Agreement in April of 
1999. Our geographic representation spans an area that is equal 
to the width of the United States and was--and is within the 
habitat range of harbor seals.
    Harbor seals are vital to our diet and spiritual and 
cultural well-being. Our current programs include a Community-
based Biological Sampling Program, coordination with the Youth 
Area Watch Project, and we are in our third year of the Harbor 
Seal Monitoring, Research and Management Program, which has 
been fully funded through NOAA.
    We also have entered into two cooperative Agreements with 
the Alaska Department of Fish and Games Subsistence Division. 
One is for a technical oversight of the Harvest Data Program 
and another is for Informational Development of a CD-ROM on 
Alaska marine mammals.
    This past year we collaborated with the University of 
Alaska, Fairbanks to expand the scope of the tissue archival 
project to include Bering Sea communities and we are currently 
collaborating with the Alaska Sea Life Center on future 
projects.
    Regarding self-regulation and co-management, Alaska Natives 
have thousands of years of historical use of marine mammals and 
we have established effective conservation methods. Now, 
through co-management, the Harbor Seal Commission have become 
equal partners with NMFS in resource management decisions.
    Some of the difficulties incurred during the development of 
the Agreement were, one, long-distance communications between 
D.C. Headquarters and Alaska. Two, remoteness of our villages 
made it costly to meet on a regular basis. Three, reaching 
consensus on consultation and the enforcement process. Four, us 
understanding NMFS's agency constraints that were often 
translated by lawyers. And, five, them understanding our system 
of oral history and conservation practices.
    With regard to proactive management through our Section 119 
Agreement, first in the Agreement we have established a co-
management committee structure made up of three NMFS 
representatives and three Harbor Seal Commission 
representatives. Secondly, NMFS recognizes tribal authority to 
regulate our own members and the Harbor Seal Commission 
recognizes the Secretary of Commerce's authority to enforce 
existing provisions of the MMPA. Thirdly, a consultation 
process will take place prior to listing stocks as strategic or 
depleted under the MMPA or the Endangered Species Act.
    Co-management has benefited Natives by the federal agency's 
formal recognition of them as equal partners. The marine 
mammals have benefited by having the primary users directly 
involved in prioritizing research and management decisions.
    Hunters and elders hold traditional knowledge that they 
transfer and they transfer their conservation practices to 
youth and researchers. Communication has vastly improved among 
the ANHSC tribes and NMFS, but there is still room for 
improvement and growth. With adequate support Harbor Seal 
Commission is positioned to assume the responsibility of 
monitoring the harvest formerly done by ADF&G Subsistence 
Division.
    Mr. Chairman, my recommendations for general improvements 
to Section 119 are, one, strengthen Section 119 so that 
agencies can share enforcement authority with tribally 
authorized co-management partners. Two, Section 119 Agreements 
need to be exempt from the Federal Advisory Committee Act. 
Three, fully appropriate the authorized funding for Section 119 
for developing infrastructure and tribal management plans, 
collecting and analyzing population data, harvest monitoring, 
cross-cultural training, educational projects, biosampling, and 
tissue archival projects.
    Finally, Mr. Chairman, the NMFS Alaska Region and the 
Harbor Seal Commission are committed to the co-management 
process as established in our Agreement and we are working hard 
on long-term solutions to our common goals. Thank you.
    [Prepared statement of Ms. Monica Riedel follows:]

    [GRAPHIC] [TIFF OMITTED] T6525.039
    
    [GRAPHIC] [TIFF OMITTED] T6525.040
    
    [GRAPHIC] [TIFF OMITTED] T6525.041
    
    [GRAPHIC] [TIFF OMITTED] T6525.042
    
    [GRAPHIC] [TIFF OMITTED] T6525.043
    
    [GRAPHIC] [TIFF OMITTED] T6525.044
    
    [GRAPHIC] [TIFF OMITTED] T6525.045
    
    Mr. Young. Thank you, Monica. Alvin.

   STATEMENT OF MR. ALVIN D. OSTERBACK, ALEUT MARINE MAMMAL 
                           COMMISSION

    Mr. Osterback. Mr. Chairman, and, Members of the Committee, 
my name is Alvin D. Osterback. I am an Aleut, a member of the 
Qagan Tayagungin Tribe, and Chairman of the Aleut Marine Mammal 
Commission.
    I am here today to speak to you on Section 119 of the 
Marine Mammal Protection Act and how we have been able to 
interact with government agencies and establish our role as set 
forth in the Act.
    The first meeting of the Aleut Marine Mammal Commission, 
hosted by the Aleutian Pribilof Island Association, took place 
in Dutch Harbor on May 27 and 28th of 1997. The Alaska 
Department of Fish and Game, the Alaska Sea Otter Commission, 
Rural Community Action Program, and National Marine Fisheries 
Service provided the funding and technical support.
    At this initial meeting each tribe selected a member and an 
alternate to represent each community, the formation of the 
Aleut Marine Mammal Commission was initiated, and they set 
direction to get incorporated and set our starting goals.
    The commission did not have the funds available to set up 
the commission and having no funding, we used help wherever we 
could find it. The Aleutian/Pribilof Island Association 
assisted the Marine Mammal Commission to get the legal 
paperwork completed and incorporate. The Aleutians East Borough 
helped with the paperwork and our request for funding. The 
Qagan Tayagungin Tribe provided office space and their staff to 
assist when required. If it weren't for the help of these 
entities, we would still be at square one.
    I talked to the Aleut Marine Mammal Commission Board 
members once using funds from the Qagan Tayagungin Tribe and 
just a month ago using a teleconference call provided free of 
charge by the Aleutians East Borough.
    Just last week, while in Anchorage, Alaska, attending a 
fishery meeting, I had a chance to meet with a representative 
of the National Marine Fisheries Service and go over the budget 
with we had submitted on how to best utilize the funding that 
is available for the first year of operation.
    At the time of this meeting I requested forward funding so 
the Board of the Aleut Marine Mammal Commission would be able 
to have a face-to-face meeting and complete some much needed 
business as we have not had a meeting since our first meeting 
of May of 1997. At this time I have not received a reply as to 
whether this can be done.
    If this is not possible, I am hoping the Aleutians East 
Borough will be able to forward fund us and be allowed to pay 
this funding back from the monies available to the Aleut Marine 
Mammal Commission when funding is approved.
    As you can see, we have been quite slow in getting on our 
feet with this Commission. It is quite hard to do without funds 
for startup. But thankfully the people of our area who have 
access to and have available funds could see the importance and 
need for this committee to exist and extended a hand to get us 
this far.
    We cover a very large area and range for the Steller sea 
lion as well as other Marine Mammals and feel that a good 
working relationship on co-management will help answer a lot of 
questions in our communities to the subsistence use of marine 
mammals as well as the commercial fisherman who interacts with 
marine mammals while sharing and pursuing the fish resource.
    To my knowledge, to date, there has been no interaction 
between the National Marine Fisheries Service and the Aleut 
Tribes of our area or the Aleut Marine Mammal Commission on the 
status of Steller sea lions or other marine mammals in the 
area.
    We are very concerned with the decline in the populations 
and feels that we should be consulted as our use and 
interaction with the Steller sea lion has been ongoing for 
thousands of years and we wish to continue this use, as a 
subsistence food item and non-harmful co-existing and sharing 
in the harvest of the ample fishery resources of the Aleutians 
area as commercial fisherman.
    I would like to thank the Committee and the Chairman for 
the opportunity to testify.
    [Prepared statement of Mr. Alvin D. Osterback follows:]

    [GRAPHIC] [TIFF OMITTED] T6525.046
    
    [GRAPHIC] [TIFF OMITTED] T6525.047
    
    [GRAPHIC] [TIFF OMITTED] T6525.048
    
    Mr. Young. Thank you, Alvin. And I have noticed that there 
is this comment about NMFS and we will be sending them some 
questions. And I have been told now that there is going to be 
expedited process. And as far as the funding goes, we will make 
sure that the funding does take place. It does not seem 
appropriate to have you to go other places to get funding when 
we should have been doing it ourselves. Lianna.

 STATEMENT OF MS. LIANNA JACK, EXECUTIVE DIRECTOR, THE ALASKA 
           SEA OTTER AND STELLER SEA LION COMMISSION

    Ms. Jack. Thank you, Mr. Chairman, for this opportunity to 
testify.
    Mr. Young. Move that closer to you or turn it on, please.
    Ms. Jack. Okay. My name is Lianna Jack. One of my Yupik 
names is Daviuk [ph]. And I am Executive Director for the 
Alaska Sea Otter and Steller Sea Lion Commission. Today I would 
like to speak of the co-management experiences of our 
commission.
    TASSC was formerly known as the Alaska Sea Otter 
Commission. In 1998, our Commission added the statewide 
advocacy of Steller sea lions. We are going into our 12th year 
of operation and represent a total of 51 tribal organizations.
    Our goals are to ensure Alaska Native participation in sea 
otter and Steller sea lion management and to continue the 
customary use of marine mammals by Alaska Natives for 
Subsistence. We strongly believe that local participation in 
management will result in conservation that prevents a depleted 
listing due to subsistence harvest. Based on our goals, we 
developed regional marine mammal plans with Bureau of Indian 
Affairs and Administration for Native American grants.
    Since then, we have signed an MOA with the U.S. Fish and 
Wildlife Service and entered into our third co-management 
Agreement. For the past three years, we have received 70,000 
per each Agreement. Our staff, which includes Alaska Native 
biologists, actively work with the Service on research and 
management.
    We work on biological and harvest monitoring projects from 
subsistence harvested sea otters. To date, more than 300 
samples have been collected. These samples have provided the 
basis to conduct a large-scale genetics study to address sea 
otter stock concerns.
    In the '97 Agreement, we focused on developing local 
management plans and initiated one project on using local and 
traditional knowledge to document the growth and dispersement 
of sea otter in Southeast Alaska. The local management plan 
developed by Sitka Tribe of Alaska has served as a model as 
other communities begin managing their subsistence resources.
    In the '98 Agreement, we developed a small boat survey 
protocol and focused on training local people to conduct these 
surveys. The small boat survey protocol provides communities 
with the ability to develop their own population trends on the 
distribution and abundance of sea otters in their area.
    In the '99 Agreement, we are focusing efforts on the 
decline of sea otters in the Aleutians. In cooperation with 
researchers, our efforts will include standardizing the small 
boat survey protocol so that locally conducted surveys can 
serve to estimate population trends.
    Another area of interest is Port Heiden in the Bristol Bay 
area where this winter heavy storms moved the Bering Sea ice 
pack south and stranded otters. In response, we focused survey 
effort on the sea otter haul-out to assess mortality and 
extent.
    While these projects have been successful and provided 
valuable management and biological information, we could do so 
much more if the Service would receive the entire appropriation 
amount within Section 119 and our funding increased.
    Since we have taken up Steller sea lion advocacy, we have 
communicated with NMFS to negotiate and sign a co-management 
Agreement. At our last board meeting in February, NMFS met with 
our board to begin in earnest discussion on an Agreement. We 
have planned a meeting next month for further discussions.
    Co-management activities will hopefully include projects 
that address sea lion issues and management and include local 
people to collect critical biological and ecological 
information.
    We ask that TASSC is granted funding to implement projects 
we have discussed with NMFS, which include harvest monitoring, 
small boat surveys, and biological sampling.
    We are a successful commission in that we accomplish needed 
projects to help manage and conserve marine mammal populations. 
We are known for our productive record and tough, but 
meaningful, relationship with the Service. We hope to be given 
that opportunity by receiving continued funding for sea otters 
and designated funding for sea lions. TASSC shares the concerns 
that you have heard today and we are in agreement with the 
recommendations you have heard on the Marine Mammal Protection 
Act.
    Thank you again, Chairman, for giving our commission the 
opportunity to testify.
    [Prepared statement of Ms. Lianna Jack follows:]

    [GRAPHIC] [TIFF OMITTED] T6525.049
    
    [GRAPHIC] [TIFF OMITTED] T6525.050
    
    [GRAPHIC] [TIFF OMITTED] T6525.051
    
    [GRAPHIC] [TIFF OMITTED] T6525.052
    
    [GRAPHIC] [TIFF OMITTED] T6525.053
    
    [GRAPHIC] [TIFF OMITTED] T6525.054
    
    [GRAPHIC] [TIFF OMITTED] T6525.055
    
    [GRAPHIC] [TIFF OMITTED] T6525.056
    
    [GRAPHIC] [TIFF OMITTED] T6525.057
    
    [GRAPHIC] [TIFF OMITTED] T6525.058
    
    [GRAPHIC] [TIFF OMITTED] T6525.059
    
    [GRAPHIC] [TIFF OMITTED] T6525.060
    
    Mr. Young. I want to thank the panel. I want to also, while 
I am thanking you, you came forth with some recommendations 
and, Lianna, you brought that out. And that is important we 
have these hearings because I don't know exactly what to do and 
I do appreciate the recommendations. I am a little curious. Do 
you feel that you are equal partners with the agencies--this is 
a generic question to anyone who wants to address it--in 
developing these programs? Charlie?
    Mr. Johnson. Mr. Chairman, the Alaska Nanuuq Commission, I 
think, has been a very equal, particularly in negotiation of 
the bilateral treaty with Russia. That has given us, I think, a 
real good standing with the Fish and Wildlife Service and they 
have been very supportive of the conditions that Alaska Nanuuq 
Commission wanted in the treaty. So I feel very strongly that 
we--in this particular case, we are an equal partner.
    Mr. Young. Okay. Now, and, Charlie, you are talking about 
the treaty, but I am talking about management within the 
domestic area. Are you--or do you feel as you are co-equals 
with the agency?
    Mr. Johnson. Not at this point because, you know, we are 
expected to do a whole lot with a very little amount of money. 
We can't be an equal partner with somebody that has millions 
when we only have a few thousand.
    Mr. Young. Okay. Now, this is for anybody who wants to jump 
in here. What happens if there is an Agreement with the 
commission with all the villagers, which I think, Monica, you 
mentioned this? Do you have any enforcement capability?
    Ms. Riedel. At this time, we only can self-regulate. We 
don't--
    Mr. Young. Just within your own area.
    Ms. Riedel. Yes, Mr. Chairman. We don't have the authority 
like the NMFS does with regards to the provisions with Native--
take, particularly wasteful take?
    Mr. Young. That is one of the main ones with me.
    Ms. Riedel. Yeah. That is the main one.
    Mr. Young. Now, if that takes place, does the--your case is 
NMFS. Right? Or Fish and Wildlife?
    Ms. Riedel. NMFS.
    Mr. Young. Okay. Does NMFS enforce or do they just ignore?
    Ms. Riedel. Mr. Chairman, with the Agreement, they are now 
committed to discuss any of these issues with the Harbor Seal 
Commission prior to any action.
    Mr. Young. Okay. Now, would you want enforcement authority?
    Ms. Riedel. I would say it is very important for us to be 
able to have that authority to self-regulate, Mr. Chairman.
    Mr. Young. Well, I--
    Ms. Riedel. Yes.
    Mr. Young. Personally, I think it would be extremely 
valuable. I know--
    Ms. Riedel. Yes.
    Mr. Young. --as hard as it may be, we do have individuals 
that, within our own groups, that take--and I call it--want and 
taking and wasteful use. And I believe your own kind can be 
best to supervise that. We--I have seen it on my salmon where 
people will bring in 150 salmon and go have a party and they 
all perish. That shouldn't be allowed, but the only person who 
is going to enforce that is actually the State Fish and Game.
    And so nobody gets--and it is a bad example to set for 
anybody else. And I have always said this is wrong because that 
takes away the whole concept of a heritage use of a species. 
And that is my own personal opinion. Do the--do you--I notice 
there is a little crossover. Do all of you cooperate with one 
another?
    Ms. Riedel. Yes, we do, Mr. Chairman.
    Mr. Young. Is that agreeable? Everybody agree with that?
    Ms. Riedel. With exception of the new commission, the Aleut 
Commission, who just formed, all of us are, as Caleb mentioned 
earlier, members of the Indigenous People's Council for Marine 
Mammals which meets usually a couple of times a year where we 
can discuss common issues.
    Mr. Young. Okay. Okay. The gentleman from Maryland. Does 
anyone like to make a comment on this? I met with most of you 
the other day, but we are--we want to rewrite this legislation 
if we can do it correctly. I tend to notice that there is a 
little bit of reluctance of NMFS' part.
    I have one last question and I know my good friend from 
Fish and Wildlife is behind you and he might want to comment. 
Why shouldn't--why should you be co-partners? Why can't you be 
the managers of--with supervision from the agencies? And there 
is a difference. And I mean, the Fish and Wildlife guy can kick 
in here. I mean, I have a little concern because you hit the 
idea when there is a lot of money and you don't have any 
money--if the money that they have, if you could get it and 
manage it with their supervision, it would seem that it would 
be--work out a whole lot better than to have all the manpower 
and all the money and, Mr. Fish and Wildlife, you kick in first 
if you want to and then sit down because they are all ganging 
up on you. But go ahead.
    Mr. Allen. All right. I mean, you have hit the nail on the 
head, Mr. Chairman. That is exactly what I think what our goal 
is here. What we want by this expanded authority is to have the 
enforceable provisions in the Act that allows us to back up 
basically local enforcement. That just doesn't exist.
    As I mentioned, and we do work right now with local 
communities to try to develop local ordinances, but, as you 
know, those only affect tribal members within that community. 
So really what we are trying to strike here is a situation 
where we would have fair and equitable rules across the state 
for all eligible subsistence users. And working through the 
commissions, we would expect that they would take as much as 
the responsibility as they want in terms of developing the 
rules and regulations associated with--
    Mr. Young. Well, David, what I am suggesting, and I 
appreciate your comment--what I am suggesting here--you don't 
see any objection then to contracting with the commissions 
because you have access to monies that they can't access. There 
is nothing for that in the budget. If we get the same result, 
you could be the boss, but they would do the work, but they 
also get the money to do the work.
    Mr. Allen. Yes. And, in fact, we do some of that right now.
    Mr. Young. Okay. Anybody else like to--Alvin?
    Mr. Osterback. Yes, Mr. Chairman. You know, I think in the 
past, over the--well, ever since the last reauthorization of 
the MMPA, as far as, say, in our area with the Steller sea 
lions, once we found out they were becoming an issue--the only 
way it actually does work is the people that live in the area 
and interact with the mammal are the ones that are truly going 
to be the ones that save them or not.
    So the areas are so large that any type of management, I 
think, needs to belong in the hands of the tribal entities in 
the area or the commissions. And I think they do a very good 
job of policing themselves. And I think if there is interaction 
or a co-management Agreement, the scientists can get all of the 
information they need during takes, harvests, during the 
subsistence use. So that portion is needed.
    But on the enforcement side, I think unless the people that 
are living in the area and interacting, the areas are so large 
that unless they can be convinced by their own people that this 
is something that needs to be done, it wouldn't happen anyway.
    Mr. Young. Well, I agree. And there is also the cultural 
clash. I mean, I remember when the Fish and Wildlife made the 
raid on the walrus hunters out at Gambell. Right, wrong, or 
indifferent, they may have been taking further tests, but the 
image was big government attacking the aboriginal people that 
live in the area. And that was the image I saw on television. I 
may be prejudiced, but I mean, that is what I related to.
    If, in fact, that type of thing was taking place and it was 
illegal, it seemed to me it could be better taken care of by 
the commission itself or someone in that arena. Because, at 
least, it wouldn't have been on NBC or CBS and CNN, you know. 
And I think there has been a little better control of what 
would have happened.
    The theme here is management prior to depletion. That is 
really what you are asking. We have to change the Act, I 
believe, to do that. And you would not be against the idea of 
contracting out. I mean, yourselves being the ones that receive 
the contract to do what you are doing now because it would give 
you the money to do so. Would it not? Yeah, Charlie. And I have 
got about five minutes and I do apologize.
    Mr. Johnson. Mr. Chairman, just very briefly. To show how 
this would work, we have a voluntary program right now which is 
an Agreement between the North Slope Borough and the Inuvialuit 
and the Southern Beaufort Sea. That is a voluntary Agreement 
for quotas have been set to split the harvest of the polar 
bears in the Southern Beaufort Sea. Of the--in the last ten 
years, the quota has totaled a cumulative total of 800. Of 
that, only 680 bears have been taken, which have been almost 
equally split between Canada and the North Slope.
    And another important factor with this voluntary Agreement 
that has no funding or other jurisdiction from outside of the 
North Slope, is that the protection of females. In that 
particular population, only 25 percent of the female--bears 
that are taken are females. In western Alaska out of the 
Chukchi population, it is 40 percent. So that alone shows the 
capability that we have of managing ourselves with--even 
without outside support.
    Mr. Young. Okay. One of these days, Charlie, you and I are 
going to talk about the polar bear, but we won't do it today at 
this hearing. I want to thank the panel and I do apologize, but 
we are going to cut this hearing off because we have 
approximately 50 minutes of voting and I know someone has to 
catch an airplane. And I will--and we will, with your advice 
and comments--and that goes for Fish and Wildlife and NMFS 
also--I would like to see this thing work and work to a better 
degree. I think it could be a model for other management of 
game across the state as a whole. So it is something we might 
consider.
    I want to thank the panel and I appreciate you all coming 
down. And we will send you some questions by the way. And the 
record will be open for 30 days and I do thank you. This 
Committee is adjourned.
    [Prepared statement of Mr. Daniel Alex follows:]

    [GRAPHIC] [TIFF OMITTED] T6525.061
    
    [GRAPHIC] [TIFF OMITTED] T6525.062
    
    [GRAPHIC] [TIFF OMITTED] T6525.063
    
    [GRAPHIC] [TIFF OMITTED] T6525.064
    
    [GRAPHIC] [TIFF OMITTED] T6525.065
    
    [GRAPHIC] [TIFF OMITTED] T6525.066
    
    [Prepared statement of Ms. Michelle Sparck follows:]
    [GRAPHIC] [TIFF OMITTED] T6525.067
    
    [GRAPHIC] [TIFF OMITTED] T6525.068
    
    [GRAPHIC] [TIFF OMITTED] T6525.069
    
    [GRAPHIC] [TIFF OMITTED] T6525.070
    
    [GRAPHIC] [TIFF OMITTED] T6525.071
    
    [GRAPHIC] [TIFF OMITTED] T6525.072
    
    [GRAPHIC] [TIFF OMITTED] T6525.073
    
    [GRAPHIC] [TIFF OMITTED] T6525.074
    
    [GRAPHIC] [TIFF OMITTED] T6525.075
    
    [GRAPHIC] [TIFF OMITTED] T6525.076
    
    [GRAPHIC] [TIFF OMITTED] T6525.077
    
    [GRAPHIC] [TIFF OMITTED] T6525.078
    
    [GRAPHIC] [TIFF OMITTED] T6525.079
    
    [GRAPHIC] [TIFF OMITTED] T6525.080
    
    [GRAPHIC] [TIFF OMITTED] T6525.081
    
    [GRAPHIC] [TIFF OMITTED] T6525.082
    
    [GRAPHIC] [TIFF OMITTED] T6525.083
    
    [GRAPHIC] [TIFF OMITTED] T6525.084
    
    [GRAPHIC] [TIFF OMITTED] T6525.085
    
    [GRAPHIC] [TIFF OMITTED] T6525.086
    
    [GRAPHIC] [TIFF OMITTED] T6525.087
    
    [Prepared statement of Mr. Eni F. H. Faleomavaega follows:]
    [GRAPHIC] [TIFF OMITTED] T6525.088
    
    [Whereupon, at 3:03, the subcommittee was adjourned.]

</pre></body></html>
